<html>
<title> - NATIONAL OCEAN POLICY: STAKEHOLDER PERSPECTIVES</title>
<body><pre>[Senate Hearing 115-650]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-650

                        NATIONAL OCEAN POLICY: 
                        STAKEHOLDER PERSPECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           DECEMBER 12, 2017
                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             

                Available online: http://www.govinfo.gov
                
                                ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-296 PDF                  WASHINGTON : 2019                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 12, 2017................................     1
Statement of Senator Sullivan....................................     1
    National Ocean Policy slide..................................    46
    Opposition letter dated September 23, 2016 to Hon. Harold 
      Rogers, Hon. Nita Lowey, Hon. Thad Cochran and Hon. Barbara 
      Mikulski...................................................    47
    Support letter dated December 12, 2017 from Christine Todd 
      Whitman, Co-Chair, Joint Ocean Commission Initiative and 
      Norman Y. Mineta, Co-Chair, Joint Ocean Commission 
      Initiative.................................................    48
Statement of Senator Peters......................................     3
    Letter dated December 11, 2017 to Hon. Daniel S. Sullivan and 
      Hon. Gary C. Peters from Kate Killerlain Morrison, 
      Executive Director, Mid-Atlantic Regional Council on the 
      Ocean......................................................     4
    Letter dated December 12, 2017 from W. Mark Swingle, Director 
      of Research & Conservation, Virginia Aquarium & Marine 
      Science Center Foundation..................................     5
    Prepared statement...........................................    14
Statement of Senator Blumenthal..................................    43

                               Witnesses

Bonnie Brady, Executive Director, Long Island Commercial Fishing 
  Association....................................................    15
    Prepared statement...........................................    18
Christopher Guith, Senior Vice President, Global Energy 
  Institute, U.S. Chamber of Commerce............................    19
    Prepared statement...........................................    21
Dan Keppen, Executive Director, Family Farm Alliance.............    24
    Prepared statement...........................................    26
Kathy Metcalf, President and CEO, Chamber of Shipping of America.    31
    Prepared statement...........................................    32

                                Appendix

Hon. Bill Nelson, U.S. Senator from Florida, prepared statement..    51
Response to written questions submitted by Hon. Gary Peters to:
    Bonnie Brady.................................................    51
    Dan Keppen...................................................    53
Response to written questions submitted to Kathy Metcalf by:
    Hon. Gary Peters.............................................    54
    Hon. Edward Markey...........................................    55

 
                        NATIONAL OCEAN POLICY: 
                        STAKEHOLDER PERSPECTIVES

                              ----------                              


                       TUESDAY, DECEMBER 12, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Peters, Fischer, 
Inhofe, Cantwell, Blumenthal, and Markey.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard will now come to order. Good 
afternoon.
    I would like to start by thanking our witnesses, who I 
think are an outstanding group of experts, for appearing before 
this Subcommittee today. We've been a busy Subcommittee. I want 
to thank again my Ranking Member, Senator Peters, on working 
closely with all of us on several hearings, many of which have 
focused on legislation.
    This is actually one of our first oversight hearings. Today 
we will examine the National Ocean Policy, which was 
established by Executive order in 2010 with questionable 
statutory authority. Despite its good intentions, the National 
Ocean Policy does little to help the management of our oceans, 
but may do harm by adding layers of Federal bureaucracy that 
undermine already effective legislation and statutory programs 
covering our oceans.
    As one of Alaska's Senators, I care deeply about America's 
oceans and marine resources. My state, for example, is 
negatively impacted, more than many others, more than pretty 
much all others, by ocean pollution and ocean debris, which is 
one of the reasons we had a strong bipartisan bill called the 
Save Our Seas Act that passed not only this Committee, but the 
entire Senate, and is waiting action in the House that 
addresses the important issue of ocean pollution and ocean 
debris.
    Alaskans have a symbiotic relationship with their oceans 
and marine life, and more so than any other state, rely on the 
health and sustainability of our oceans and the resources 
within them.
    While the National Ocean Policy's roots can be traced to 
Bush era policy recommendations, its current form is 
drastically larger in scope and features unwieldy regulations. 
The policy establishes a top-down management structure based on 
coastal and marine spatial planning that has the potential to 
significantly impact a wide range of economic sectors including 
commercial and recreational fishing, which are critical to my 
state, inland agriculture, maritime commerce, and energy 
development.
    Congress recognized the problematic nature of the National 
Ocean Policy when similar attempts and schemes in legislation 
failed to advance in four consecutive Congresses under both 
Democrat and Republican majorities.
    Among the concerning characteristics of the Executive 
agency advancement of National Ocean Policy is the concept of 
zoning our oceans. The architects of the Policy maintain this 
process is designated and designed to unite stakeholders with 
state, Federal, and tribal partners to streamline 
decisionmaking. I think most of us would agree that's actually 
a very, very good idea.
    But the structure that we'll talk about, and you'll see 
here, with regard to what this Executive order actually looks 
like, might have the very opposite effect. The National Ocean 
Policy establishes 9 regional planning bodies composed of 27 
Federal agencies, again, that's a schematic of what this 
Executive order does, relevant states, tribes, and territories. 
In some cases, the RPBs include representatives from foreign 
governments. The policy also establishes an 18-member 
governance committee, a 5-member steering committee, and two 
policy committees to oversee resource management in science and 
technology. As you can see from this chart, this is a complex 
and bureaucratic system that was not set forth in any statute.
    One of the biggest concerns about this Executive order is 
that it could undermine the successful state-run regional ocean 
partnerships and regional fisheries management councils, and 
would create statutory conflicts with landmark laws, like the 
Magnuson-Stevens Act. An Executive order undermining finely 
balanced legislation that works right now, like the MSA does, 
should concern all members of this body.
    The perhaps most troubling aspect of the National Ocean 
Policy is the regulatory burden it can place on maritime 
commerce, recreational and commercial fishing, energy 
development, and small businesses. Not only could its national 
standards grind permitting processes to a halt, but would also 
make Federal agencies vulnerable to costly lawsuits. This is 
particularly troubling when you consider that these regulations 
will also impact inland areas, not just oceans and coastlines.
    The United States has a very strong record of sustainable 
management of our oceans and marine resources. While our system 
is not perfect, it remains the envy of the world. Undermining 
this functional statutory structure by replacing it with an 
Executive order with a top-down Federal bureaucracy approach 
not authorized by Congress raises many concerning issues, which 
will be the focus of today's hearing. Congress has attempted to 
stop this Executive policy by withholding funds for its 
implementation, but Federal agencies have moved forward in 
implementation nonetheless.
    I do, however, want to make clear that there are some 
positive aspects about the National Ocean Policy. The National 
Ocean Policy, for example, has requirements to increase data-
sharing between agencies and promote invaluable science and 
research to better understand our oceans and marine resources. 
I believe that every member of this Committee supports those 
important goals. Since I joined the Senate, these have been 
priorities of mine and I believe should be a top priority of 
Congress and the executive branch.
    Today we will hear from some of the different user groups 
and communities most impacted by this policy. I'm confident 
that their invaluable perspectives will help us shed light on 
this Executive order as part of our oversight responsibilities.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Chairman Sullivan. And it's good 
to be with you again for another important hearing. And I look 
forward to hearing from our witnesses.
    And I want to take this opportunity to thank each of our 
witnesses for being here and for sharing your views on the 
state of ocean planning.
    Mr. Chairman, our home states of Alaska and Michigan are 
both maritime states, and we are a maritime nation. Our oceans 
and our Great Lakes are economic engines providing millions of 
Americans with jobs and income through fishing, tourism, 
shipping, energy, research, boating, and military and national 
security activities. In turn, the industry is supporting these 
millions of jobs that rely on healthy, functioning marine and 
freshwater ecosystems.
    Today's hearing is titled, ``National Ocean Policy,'' but 
for good reason, I must add the current National Ocean Policy 
explicitly recognizes the Great Lakes. The lakes hold a full 20 
percent of the world's surface fresh water and are in the 
middle of one of the world's most productive agricultural 
areas. Recreational boaters and commercial freighters from 
around the world sail through the Great Lakes, and our 
fisheries alone support more than 75,000 jobs in the region.
    As a result, through formal law and through good practice, 
the United States, Canada, and Native American tribes routinely 
coordinate on management decisions. We recognize the lakes are 
a shared public resource as well as a national treasure, and by 
and large, we manage them that way. This coordination spans in 
scale from local agreements to formal treaties.
    By the way, Mr. Chairman, after our many hearings together, 
considering the Magnuson-Stevens Act, let me recommend our own 
Great Lakes Fishery Commission to you as a possible model for 
fisheries management practices.
    Because it has been some time since the Senate has held a 
hearing on National Ocean Policy, I want to just take a moment 
to acknowledge the leadership shown by this Committee and our 
last two Presidential administrations on this issue.
    Back in 2000, led by Senator Hollings and Senator Stevens, 
Congress passed the Oceans Act. The law created a 
Presidentially appointed commission, which was directed to 
consider and provide a report back to Congress with 
recommendations to guide effective ocean governance. The law 
also directed the President to submit a comprehensive ocean and 
coastal policy plan back to Congress within 120 days of 
receiving the report.
    President Bush's administration did so through the Ocean 
Action Plan, and the President established a Federal 
interagency coordination process by Executive order.
    President Obama then expanded the National Ocean Policy 
effort in a few ways, for example, proposing a new framework 
for maritime spatial planning to help inform and prioritize 
potentially competing ocean and coastal areas.
    President Bush's National Ocean Plan and his Great Lakes 
Executive order led to the development of a very successful 
Great Lakes restoration initiative formalized during the Obama 
administration. The initiative, which brings together 15 
Federal agencies, in addition to state and local partners, has 
provided Federal support to over 3,500 projects to protect and 
restore the Great Lakes, and have fundamentally transformed the 
region.
    I regret that we won't hear from any of the Federal 
agencies or states involved with ocean planning today, as I 
certainly would have welcomed the opportunity to hear about 
some of the successes that have been achieved as well as some 
of the lessons that have been learned. However, I have received 
letters from the Joint Ocean Commission Initiative, from 
several industry leaders, and from the Mid-Atlantic Regional 
Council on the Ocean.
    Mr. Chairman, I would like to enter those records for the 
hearing record.
    Senator Sullivan. Without objection.
    [The information referred to follows:]

                 Mid-Atlantic Regional Council on the Ocean
                                                  December 11, 2017
Hon. Daniel S. Sullivan,
Chair,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.
Hon. Gary C. Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chair Sullivan and Ranking Member Peters:

    In anticipation of your ``National Ocean Policy: Stakeholder 
Perspectives'' hearing on December 12, the Mid-Atlantic Regional 
Council on the Ocean (MARCO) expresses its continued strong support for 
an inclusive national ocean policy framework that sustains regional 
ocean planning efforts in the Mid--Atlantic. The States are the biggest 
stakeholder in the national ocean policy conversation and have been the 
direct beneficiaries of the current emphasis on regional ocean 
planning.
    The Mid--Atlantic has its roots in the ocean, and our coastal 
communities remain the lifeblood of the regional economy and the key to 
its high quality of life. Established as a partnership of the coastal 
programs of Virginia, Maryland, Delaware, New Jersey and New York, 
MARCO seeks to further enhance the vitality of the regional ocean 
ecosystem and economy by advancing issues important to all five States.
    MARCO was formed out of recognition that States have a collective 
interest in the wise stewardship of shared ocean resources and 
coordinated management of their use. But to truly be successful in 
maintaining a healthy ocean and driving economic growth along our 
coasts, we need a willing and able Federal partner. Through regional 
ocean planning, the National Ocean Policy provides a clear and direct 
opportunity to recognize the regional nature of ocean issues and drive 
Federal programs to address them collaboratively and at a manageable 
scale.
    Regional ocean planning is a non--regulatory process that improves 
the effectiveness of Federal, State, and Tribal implementation of their 
responsibilities in the Mid--Atlantic Ocean through three core 
elements. Together, these three elements support economic development 
and ecosystem conservation so that multiple interests can co--exist in 
a manner that provides for sustainable uses, reduces conflict, and 
enhances compatibility. These include:

        1. Coordination and collaboration at a regional scale
        With over twenty stove--piped entities managing uses and 
        resources in Federal waters, coordination among Federal, State, 
        and Tribal entities is key to shifting to a more comprehensive 
        and integrated regional perspective on management.

        2. Effective engagement with all ocean users
        On-going communication and information sharing with all ocean 
        stakeholders is critical to ensure that all perspectives and 
        interests are heard and that actions reflect the economic, 
        social, cultural, and ecological needs and goals of the Mid--
        Atlantic region.

        3. Public access to best available data and information
        Our Mid--Atlantic Regional Ocean Data Portal provides a 
        centralized source for the best available spatial data about 
        ocean uses, species and habitats. By providing information 
        about the types of uses or species and habitats that co--occur 
        in a particular location, both decision--makers and permitting 
        applicants can have information to identify potential conflicts 
        and compatibilities. The Portal offers a streamlined source of 
        information that can more efficiently inform environmental 
        impact assessments and siting proposals throughout the pre--
        planning and application processes.

    Regional ocean planning has become vital to ensuring State 
interests are considered and integrated into decision making. Put 
simply, this type of coordinated effort is fundamental to ``good 
government'' and reflects an appropriate respect for State's rights in 
issues under Federal control. We urge you to ensure these key elements 
of ocean planning continue to be implemented by supporting the goals of 
the National Ocean Policy and the Mid--Atlantic Regional Ocean Action 
Plan.
    Thank you for considering our views on this very important issue. 
Please do not hesitate to contact me for further information.
            Sincerely,
                                  Kate Killerlain Morrison,
                                                Executive Director,
                            Mid-Atlantic Regional Council on the Ocean.
                                 ______
                                 
       Virginia Aquarium & Marine Science Center Foundation
                                                  December 12, 2017

U.S. Senate,
Committee on Commerce, Science, and Transportation,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard.

Dear Chairman Thune and Ranking Member Nelson, Subcommittee Chairman 
Sullivan and Subcommittee Ranking Member Peters,

    On behalf of the Virginia Aquarium & Marine Science Center 
Foundation, our thriving ocean industries and our treasured marine 
ecosystems, I am writing in support of the National Ocean Policy and 
regional ocean planning efforts that are making a difference for 
Virginia and the Nation. As evidenced by the Mid-Atlantic Regional 
Ocean Action Plan, coastal states and the Federal Government, tribes, 
fisheries managers, and other stakeholders have made significant 
progress in defining new opportunities for engagement on coordinated 
ocean management.
    Virginia Aquarium research has contributed to the ongoing planning 
process by providing marine mammal and sea turtle data. This kind of 
common sense coordination is needed to encourage sustainable economic 
development while also protecting and restoring our living marine 
resources.
    Created as a result of recommendations from two bi-partisan 
national commissions, the National Ocean Policy benefits our ocean 
economy, safety and security, and our ocean and coastal resilience by 
supporting local actions. Here in Virginia, massive new ships are 
arriving from an expanded Panama Canal; there is great demand for 
offshore sand mining to rebuild beaches; we are looking at offshore 
wind to power our cities and towns; and our military fleet is growing. 
Our busy waters support a thriving fishing industry and are home to 
endangered North Atlantic right whales and sea turtles. On top of 
increased competition for space, ocean life--and the jobs, food, and 
recreation that depend on it--face new stresses of wanning waters and 
acidification as a result of climate change. Ocean planning tools such 
as the regional ocean plans and the ocean data portals, advanced and 
supported by the National Ocean Policy, are vitally needed to make 
smart decisions that promote responsible ocean growth and support 
families and businesses for multiple generations.
    Virginia' s ocean is an economic powerhouse. In 2014 alone, ocean 
sector industries, such as ship building, fishing and tourism, 
contributed more than $8.2 billion to Virginia's gross domestic product 
(GDP) and supported more than 118,000 jobs.<SUP>i</SUP> There's too 
much at stake to risk our healthy ocean.
---------------------------------------------------------------------------
    \i\ National Oceanic and Atmospheric Administration. Quick Report 
Tool for Socioeconomic Data. Ocean Economy, New York, 2014. Available 
at: http://coast.noaa.gov/quickreport/#/index.html.
---------------------------------------------------------------------------
    There is a broad base of support for regional ocean planning 
efforts to continue. Fishermen, shipping companies, offshore wind 
developers, conservationists and others support the data portals and 
efforts of the state and Federal agencies to implement the regional 
ocean plans. The National Ocean Policy helps keep the ocean working for 
everyone to use and enjoy. We urge the committee to support the 
National Ocean Policy, the Mid-Atlantic Regional Ocean Action Plan and 
other regional plans, and to help ensure that our Nation has the 
Federal support needed to protect our ocean for the future.
            Sincerely,
                                           W. Mark Swingle,
                               Director of Research & Conservation,
                  Virginia Aquarium & Marine Science Center Foundation.
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Peters. And again I would like to thank you, Mr. 
Chairman, for holding this hearing, and I look forward to 
hearing from our four witnesses today.
    Again, thank you for making the effort to be here. We look 
forward to your testimony.
    [The prepared statement of Senator Peters follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    Thank you Chairman Sullivan. I'm pleased to join you in welcoming 
today's witnesses. Thank you all, for your willingness to be here 
today, and for sharing your views on the state of ocean planning.
    Mr. Chairman, our home states of Alaska and Michigan are both 
maritime states, and we are a maritime nation. Our oceans and our Great 
Lakes are economic engines, providing millions of Americans with jobs 
and income through fishing, tourism, shipping, energy, research, 
boating, and military and national security activities. In turn, the 
industries supporting these millions of jobs rely on healthy, 
functioning marine and freshwater ecosystems.
    Today's hearing is titled National Ocean Policy, but for good 
reason the current national ocean policy explicitly recognizes the 
Great Lakes. The Lakes hold a full 20 percent of the world's surface 
freshwater and are in the middle of one of the world's most productive 
agricultural areas. Recreational boaters and commercial freighters from 
around the world sail the Great Lakes, and our fisheries alone support 
more than 75,000 jobs in the region.
    As a result, through formal law and through good practice, the 
United States, Canada, and Native American tribes routinely coordinate 
on management decisions. We recognize the Lakes are a shared public 
resource and a national treasure, and by and large we manage them that 
way. This coordination spans in scale from local agreements to formal 
treaties.
    By the way Mr. Chairman, after our many hearings together 
considering the Magnuson Stevens Act, let me recommend our own Great 
Lakes Fishery Commission to you as an excellent model for fisheries 
management.
    Because it has been some time since the Senate has held a hearing 
on the National Ocean Policy, I want to take a moment to acknowledge 
the leadership shown by this Committee and our last two Presidential 
Administrations on the issue. Back in 2000, led by Senators Hollings 
and Senator Stevens, Congress passed the Oceans Act. The law created a 
presidentially appointed Commission, which was directed to consider and 
provide a report back to Congress with recommendations to guide 
effective ocean governance. The law also directed the President to 
submit a comprehensive ocean and coastal policy back to Congress within 
120 days of receiving the Commission's report.
    President Bush's Administration did so through an Ocean Action 
Plan, and the President established a Federal interagency coordination 
process by Executive Order. President Obama then expanded the National 
Ocean Policy effort in a few ways, for example proposing a new 
framework for marine spatial planning to help inform and prioritize 
potentially competing ocean and coastal uses.
    President Bush's National Ocean Plan and his Great Lakes Executive 
Order lead to the development of the very successful Great Lakes 
Restoration Initiative, formalized during the Obama Administration. The 
Initiative, which brings together 15 Federal agencies in addition to 
state and local partners, has provided Federal support to over 3,500 
projects to protect and restore the Lakes, fundamentally transforming 
the region.
    I regret that we won't hear from any of the Federal agencies or 
states involved with ocean planning today, as I would have welcomed the 
opportunity to hear about some of the successes that have been 
achieved, as well as the lessons that have been learned. However, I've 
received letters from the Joint Ocean Commission Initiative, from 
several industry leaders and from the Mid-Atlantic Regional Council on 
the Ocean. Mr. Chairman, I'd be grateful to enter these letters for the 
hearing record. With that I thank you for calling this hearing, and I 
look forward to hearing from the four witnesses today. Thank you again 
for being here.

    Senator Sullivan. Great. And thank you, Senator Peters. And 
again I appreciate all the cooperation that we've had on this 
Subcommittee. I think it has been a very active Subcommittee.
    And I look forward to our witnesses today. Today we do 
have, and I want to welcome, a distinguished panel of experts, 
starting with Ms. Bonnie Brady, Executive Director of the Long 
Island Commercial Fishing Association; Mr. Christopher Guith, 
if I'm saying that right. Did I get that right?
    Mr. Guith. Close, ``Gooth.''
    Senator Sullivan. Guith, OK. Mr. Christopher Guith, Senior 
Vice President, Global Energy Institute, U.S. Chamber of 
Commerce; Mr. Daniel Keppen, Executive Director, Family Farm 
Alliance; and Ms. Kathy Metcalf, President and CEO of Shipping 
of America.
    You will each have 5 minutes to deliver an oral statement, 
and a longer written statement will be included in the record 
if you so desire.
    Ms. Brady, why don't we begin with you.

        STATEMENT OF BONNIE BRADY, EXECUTIVE DIRECTOR, 
           LONG ISLAND COMMERCIAL FISHING ASSOCIATION

    Ms. Brady. Thank you very much. Chairman Sullivan, Ranking 
Member Peters, and members of the Subcommittee, it is a great 
honor to be chosen to testify before you today. My name is 
Bonnie Brady, and I am the Executive Director of the Long 
Island Commercial Fishing Association, which represents 
fisherman from all gear types throughout Long Island.
    From New York Harbor to Montauk Point, we are 118 miles 
long, with Long Island Sound to the north and the Atlantic 
Ocean on the south and east. Ninety-nine percent of all the 
seafood landing in New York State comes off of the waters off 
of Long Island, and in 2016, just shy of 30 million pounds with 
just under $50 million.
    Long Island is home to two of the Nation's top commercial 
fishing ports, Montauk and Shinnecock. It may not be on 
breaking from--it's not one of the top 13 of the top 70, like 
yourself, Senator, because I was counting and looked, but for 
us, we consider it to be quite a task.
    It is the number one port in the state, and it's where I 
call home. It's 68th in the Nation, which is for us a little--a 
pretty impressive thing, especially in light of the fact that 
about 300 members of our community make their living directly 
or indirectly from the sea.
    My involvement in the fishing industry is not through my 
lineage. I'm the daughter of an Irish Catholic cop from Yonkers 
and a fashion model from New Jersey. I spent the formative 
years in New Jersey and New York, went to journalism school in 
South Carolina, and then spent several years in D.C. working, 
among other things, as a Hill staffer. I moved to Montauk in 
1989 to help with my family care for my younger siblings when 
my father retired.
    After a job as a local beat reporter, a Peace Corps tour as 
a health volunteer in Cameroon, I returned to Montauk again, 
became a paramedic, and met my husband, a fisherman. I began 
working with fishermen in 1999 when I had the choice of picking 
up the chalk at an informational new fishing group meeting and 
tried to help organize various fishermen's ideas about 
regulations on the blackboard for future discussion.
    Since 2000, I've represented commercial fishermen at the 
local, county, state, and Federal level, attending numerous 
Federal fishery management council meetings and educating the 
public on the importance of commercial fishing in New York.
    We fish in state and Federal waters regulated by the state 
in conjunction with the Atlantic States Marine Fisheries 
Commission and both the New England and the Mid-Atlantic 
Fishery Management Council. In all my years of experience with 
fisheries management, President Obama's 2010 National Ocean 
Policy Executive order represents one of the greatest threats 
I've seen to the health and economic well-being of the Long 
Island commercial fishing community.
    I've been a stakeholder of the Mid-Atlantic Regional 
Planning Body, the Mid-RPBs, created under the National Ocean 
Policy since 2013. I've been to Mid-RPB public meetings, 
breakout sessions, flip-charting focus groups, and all-day 
marathon webinars for the last 4 years. I'm also a Mid-RPB 
stakeholder liaison and last month attended the New England RPB 
for a one-day workshop on its portal.
    From New Hampshire to Virginia, I've driven up and down the 
seaboard to represent commercial fishermen at public comment 
opportunities for their RPB's Ocean Action Plans, not just 
representing New York's fishermen, but often those of the Mid-
Atlantic because I'm often the only fishing person there. 
Meetings are often held at a nondescript hotel conference room 
nowhere near any coastal town or fishing port that could really 
feel the repercussions of possible future actions.
    At most meetings, I am one of maybe two representing 
coastal fishing communities in a virtual sea of ENGOs and 
government bureaucrats. I stand before the RPB at each and 
every meeting and I repeatedly explain that fish and 
fishermen's data is not being represented appropriately, it is 
not complete, and is often highly inaccurate. I suggest 
alternative data streams and cooperative research initiatives 
for gathering better data. I've been doing this to no avail for 
years and at a significant cost to me and my members in terms 
of both time and money.
    Beginning in September 2015, I challenged the Mid-RPB on 
their fisheries data, and requested that any fishery-specific 
data be vetted through the commercial fishing industry, 
specifically the Trawl Advisory Panel of the Mid-Atlantic 
Fishery Management Council because of multiple issues relating 
to vessel trip report data and National Marine Fisheries 
Service Trawl Survey calibration methods.
    For months, I was told by the Mid-RPB a fishermen's 
workshop would happen. It never happened. The fisheries data 
issues remain unaddressed. Underscoring these concerns is the 
Mid-RPB's effort to identify ecologically rich areas, which, 
under their Ocean Action Plan, would subsequently be 
incorporated into government decisionmaking.
    In addition to identifying these areas based on inaccurate 
data, this effort may create actions to create new marine 
protected areas, MPAs, where fishing is either off limits or 
severely restricted without any statutory authority for doing 
so and without the transparency associated with the authorized 
mechanism, such as the National Marine Sanctuaries Act and 
Magnuson-Stevens Act.
    The National Ocean Policy takes the statutory power of 
NMFS, NOAA, and the fishery management councils, and seeks to 
place it with the RPBs so that the Mid-Atlantic--I'm sorry--the 
Mid-RPB could falsely declare an area worthy of greater 
protection outside of these long-established and authorized 
processes. While the RPB states it's nonregulatory, the 
Executive order and agency commitments make clear that this is 
in fact a body whose actions will have regulatory impacts.
    One of the many concerns is RPB discussion about possibly 
using these unauthorized plans to carry out elements of the 
Coastal Zone Management Act and impose new pre-application 
consultation requirements and the RPB's desire to favor certain 
uses over others to the detriment of commercial fishing.
    Also significant since at least 2008, the Gordon and Betty 
Moore Foundation has awarded copious grants to ENGOs in the 
records to push ecosystem-based management, coastal and marine 
spatial planning, and MPAs, in addition to the RPBs and the 
entire National Ocean Council plan. This includes funding for 
the RPB's activities until 2016.
    Groups like the Coastal State Stewardship, Urban Coast 
Institute, Stanford Woods Institute for the Environment, 
Wildlife Conservation Society, Nature Conservancy, NRDC, Living 
Oceans, Surfrider, and many, many others are all grant-funded 
to show up to RPB meetings and pretend they have no bias or 
specific agenda nor funding sources when the entire process has 
been funded by at least one ENGO from the beginning, leaving 
us, the fishermen, possibly one of the oldest stakeholders in 
the sea, with no voice that matters and no seat at the decision 
table--decisionmaking table.
    Thus, our very future could be decided by an unauthorized 
planning process that is as transparent as mud, and our two 
choices we are offered as commercial fishermen seem to be to 
get closed out of productive fishing grounds via MPAs or be 
subject to closures with the RPB's blessings. This is not 
doable for thousands of commercial fishing families throughout 
the country. We could lose everything--our jobs, our homes--as 
we are pushed out, destroying the very fabric of our coastal 
fishing communities.
    It's not about retraining for a new job. Stocks are 
sustainable. We shouldn't be forced off into a quasi-parallel 
ocean-governing body whose goal is to push us off the ocean, to 
force an agenda that they haven't been able to democratically 
push through, the Magnuson-Stevens Act and its fish councils.
    We, the commercial fishermen of the U.S., are the ones who 
need help and protection now from Congress. We desperately need 
your help to ensure that commercial fishermen are no longer 
saddled with additional uncertainty or new regulatory hurdles 
as the result of the National Ocean Policy Executive order, and 
that Federal agencies will no longer flout the will and intent 
of Congress.
    I look forward to any questions you may have. Thank you 
very much.
    [The prepared statement of Ms. Brady follows:]

        Prepared Statement of Bonnie Brady, Executive Director, 
               Long Island Commercial Fishing Association
    Dear Chairman Thune, Chairman Sullivan, Ranking Member Peters, and 
Members of the Subcommittee:

    It is a great honor to be chosen to testify before you today.
    My name is Bonnie Brady, and I am the Executive Director of the 
Long Island Commercial Fishing Association, which represents fishermen 
from all gear types throughout Long Island, NY. From New York Harbor to 
Montauk Point, Long Island extends 118 miles with Long Island Sound to 
our north and the Atlantic Ocean to our south and east. 99 percent of 
all the seafood that is landed in New York State comes from the waters 
off Long Island, which in 2016 translated to just shy of 30 million 
pounds of fish worth just under $50 million dollars to our New York 
coastal communities.
    Long Island is home to some of the Nation's top commercial fishing 
ports, including Montauk (53rd in poundage and 68th in dollars) and 
Shinnecock (78th in poundage and 93rd in dollars). Montauk is also the 
number one commercial fishing port in the state, and where I call home. 
For a small town of 3,100 people with approximately 300 who make their 
living either directly or indirectly from the sea, 68th in the Nation 
is a pretty impressive accomplishment.
    My involvement in the fishing industry is not through my lineage. 
I'm the daughter of an Irish Catholic cop from Yonkers and a fashion 
model from New Jersey. I spent my formative childhood years in New 
Jersey, then New York, went to journalism school in South Carolina, 
then spent several years in DC working, among other things, as a Hill 
staffer. I moved to Montauk in 1989 to help my care for my younger 
siblings, where my parents had moved after my father retired from the 
police department.
    After a job as a local beat reporter and a Peace Corps tour as a 
health volunteer in Cameroun, I returned to Montauk again, became a 
paramedic, and met my husband, a fisherman.
    I found myself working with fishermen in 1999 when I picked up the 
chalk at an informational new fishing group meeting and tried to help 
organize various fishermen's ideas about regulations on a blackboard 
for further discussion.
    Since 2000, I have represented commercial fishermen at the local, 
county, state and federal level, attending numerous meetings including 
Federal fishery management council meetings, educating the public on 
the importance of commercial fishing in New York. We fish in State and 
Federal waters regulated by the state in conjunction with the Atlantic 
States Marine Fisheries Commission, and both the New England (NEFMC) 
and Mid-Atlantic (MAFMC) Fishery Management Councils.
    In all my years of experience with fisheries management, President 
Obama's 2010 National Ocean Policy Executive Order represents one of 
the greatest threats I have seen to the health and economic well-being 
of the Long Island commercial fishing community. I have participated as 
a stakeholder of the Mid-Atlantic Regional Planning Body (Mid-A RPB) 
created under the National Ocean Policy since late 2013. I've attended 
Mid-A RPB public meetings, multiple breakout sessions, flip-charting 
focus groups, and all-day marathon webinars for the last four years. I 
am also a Mid-A RPB stakeholder liaison and attended the New England 
Regional Planning Body just last month for a one-day workshop on its 
portal.
    From New Hampshire to Virginia, I have driven up and down the 
Atlantic Seaboard to represent commercial fishermen at public comment 
opportunities for the RPB's ocean action plans. Not just representing 
New York's fishermen, but often those of the Mid-Atlantic, because I'm 
often the only fishing person there. Usually the meetings are held at a 
non-descript hotel conference room, nowhere near any coastal town or 
fishing port that could really feel the repercussions of possible 
future actions. At most meetings, I am one of possibly only two 
representing coastal fishing communities in a virtual sea of ENGOs and 
government bureaucrats.
    I stand before the RPB at each and every meeting and repeatedly 
explain that fishermen's data is not being represented appropriately, 
and that the data they are using is not complete, and is often highly 
inaccurate. I suggest alternative data streams and cooperative research 
initiatives for gathering better data. I've been doing this to no avail 
for years, and at significant cost to me and my members in terms of 
both time and money.
    Beginning in September of 2015, I have challenged the Mid-A RPB on 
their fisheries data, and requested that any fisheries specific data be 
vetted via commercial fishermen, specifically the Trawl Advisory Panel 
of the MAFMC, prior to its being released because of multiple issues 
relating to Vessel Trip Report Data and National Marine Fisheries 
Service trawl survey calibration methods.
    For months, I was told by the Mid-A RPB that a fishermen's workshop 
would be forthcoming. It never happened. The fisheries data issues 
remain unaddressed.
    Underscoring these concerns is the Mid-A RPB's effort to identify 
``Ecologically Rich Areas,'' which under their Ocean Action Plan would 
subsequently be incorporated into government decision-making.
    In addition to identifying these areas based on inaccurate data, 
this effort may result in actions to create new marine protected areas 
where fishing is either off-limits or severely restricted, without any 
statutory authority for doing so and without the transparency 
associated with authorized mechanisms such as the National Marine 
Sanctuaries Act and Magnuson-Stevens Act. The National Ocean Policy 
takes the statutory power of the National Marine Fisheries Service, 
NOAA, and the regional fishery management councils and seeks to place 
it with the RPBs, so that the Mid-A RPB could falsely declare an area 
worthy of greater protection outside of these long-established and 
authorized processes.
    While the RPB states it is a non-regulatory body, the Executive 
Order and subsequent federal agency commitments make clear that this is 
in fact a body whose actions have regulatory impacts. In addition to 
usurping the authority of fishery management councils, one of many 
concerns I have is RPB discussion about possibly using these 
unauthorized plans to carry out elements of the Coastal Zone Management 
Act and impose new pre-application consultation requirements. The 
regulatory nature of RPB activities underscores concerns about the 
RPBs' desire to favor certain uses over others, to the detriment of 
commercial fishing.
    Also of significance, since at least 2008, the Gordon and Betty 
Moore foundation has awarded copious grants to ENGOs in their efforts 
to push ecosystem based management (EBM), coastal and marine spatial 
planning (CMSP) and marine protected areas (MPAs), in addition to the 
RPBs and the entire National Ocean Council plan. This includes funding 
for Mid-A RPB activities until 2016.
    Groups like the Coastal State Stewardship, Monmouth University 
Urban Coast Institute, Stanford's Woods Institute for the Environment, 
Wildlife Conservation Society, the Nature Conservancy, Natural 
Resources Defense Council, Living Oceans, Surfrider, and many, many 
others, are all grant-funded to show up to RPB meetings and pretend 
they have no bias or specific agenda, nor funding sources when the 
entire process has been funded by at least one ENGO from the beginning. 
Leaving us, the fishermen, possibly one of the oldest stakeholders in 
the sea, with no voice that matters and no seat at the decision-making 
table.
    Thus, our very future could be decided by an unauthorized planning 
process that is as transparent as mud, and our two choices we are 
offered as commercial fishermen seem to be get closed out of productive 
fishing grounds via MPAs or sanctuaries, or be subject to closures with 
the RPBs' blessings.
    This is not doable for thousands of commercial fishing families 
throughout the country. We could lose everything, our jobs and our 
homes, as we are pushed out, destroying the very fabric of our coastal 
fishing communities. It's not about retraining for a new job. Stocks 
are sustainable. We shouldn't be forced into a quasi-parallel ocean 
governing body whose goal is to push us off the ocean to force an 
agenda that they haven't been able to push through democratically 
through the Magnuson Stevens Act and its fish councils.
    We, the commercial fishermen of the US, are the ones who need help 
and protection now from Congress. We desperately need your help to 
ensure that commercial fishermen are no longer saddled with additional 
uncertainty or new regulatory hurdles as a result of the 2010 National 
Ocean Policy Executive Order and that Federal agencies no longer flout 
the will and intent of Congress. I look forward to any questions that 
you may have.

    Senator Sullivan. Thank you, Ms. Brady. Very, very powerful 
testimony.
    Mr. Guith.

                STATEMENT OF CHRISTOPHER GUITH,

        SENIOR VICE PRESIDENT, GLOBAL ENERGY INSTITUTE,

                    U.S. CHAMBER OF COMMERCE

    Mr. Guith. Thank you, Chairman Sullivan, Ranking Member 
Peters, and members of the Subcommittee. I'm Christopher Guith, 
Senior Vice President of the Global Energy Institute, an 
affiliate of the U.S. Chamber of Commerce, the world's largest 
business federation, representing the interests of more than 3 
million businesses of all sizes, sectors, and regions, as well 
as state and local chambers and industry associations, and 
dedicated to promoting, protecting, and defending America's 
free enterprise system.
    The business community views the National Ocean Policy as a 
unnecessary bureaucratic and unauthorized regulatory action 
that creates significant risk and uncertainty to both private 
and public sector investment and the regulatory processes 
already in place. The impacts on fishing, shipping, and 
offshore energy, like oil and natural gas development, as well 
as wind generation, are clear.
    But while this policy is punitively focused on oceans, the 
final recommendations from the Interagency Ocean Policy Task 
Force make it clear that the policy's impacts will not stop at 
the coastline. To be sure, the reach could be economy-wide. 
These actions will be taken not only without statutory 
authorization, but in the face of continued congressional 
opposition, as expressed via the appropriations process.
    Healthy and sustainable oceans are absolutely in the 
national interest. Congress has seen fit to enact dozens of 
laws to ensure this. Together with hundreds of state laws, a 
framework has been created to do precisely what the National 
Ocean Policy ostensibly will do, but without legal authority.
    Coastal and marine spatial planning under the policy is a 
concept that, if implemented, would limit specific areas of 
ocean for particular uses. There are already numerous 
mechanisms under Federal law to resolve such conflicts. 
Allowing unelected regional planning bodies to essentially zone 
state and Federal waters is not authorized in any statute, nor 
is it remotely envisioned by any previous congressional action.
    The task force provided little analysis for even 
description for the problems its recommendations allege to 
address, nor do the recommendations provide any constraint or 
even oversight that might otherwise allay concern over 
potentially severe negative impacts.
    These concerns are no longer prospective. The creation and 
operation of regional planning bodies in the Northeast and Mid-
Atlantic have already given rise to forced and exclusionary 
efforts to create regional plans that could be used to preclude 
recreational and economic activity. Through implementation, 
Federal agencies have been charged to use these plans to inform 
and guide their actions and decisions. These bodies consist 
solely of governmental officials with no representation of the 
industries they intend to regulate.
    The breadth of this policy inspires our greatest concern. 
It explicitly calls for addressing urban and suburban 
development as well as land-based source pollutants. Both have 
already significantly--both are already significantly regulated 
at the Federal, state, and local levels.
    Additionally, it allows for regional planning bodies to 
include upland areas. It finds that current conditions 
necessitate land-based planning efforts with ocean, coastal, 
and Great Lakes planning. It also explicitly targets certain 
specific industries by name, including energy, agriculture, 
forestry, and infrastructure development. The infrastructure 
industry must already negotiate a Byzantine regulatory 
labyrinth that often leads to costly delays. As Congress and 
the administration continue preliminary plans to bolster 
infrastructure investment, the National Ocean Policy stands as 
an unnecessary and unauthorized obstacle.
    The impacts of this policy are already being felt through 
the increased regulatory uncertainty. Moreover, while the 
policy was first being implemented, the previous administration 
cited it as justification for placing more than 94 percent of 
Federal waters off limits for energy development.
    The policy exacerbates the uncertainty and adds yet another 
maze of real-world fact and regulation for businesses to 
attempt to navigate. As the chart you referenced, Mr. Chairman, 
illustrates, it provides a daunting visual representation of 
how complex and overbroad this new bureaucracy is. This may, in 
turn, lead to even less investment in areas such as 
infrastructure construction, manufacturing, and energy 
production. This is why some 80 associations sent this letter 
to President Trump asking that the policy be rescinded.
    At a time that everyone desires greater economic growth, 
the country is looking for its leaders to put an end to 
unnecessary red tape and get the economy moving again. 
Comprehensive tax reform would be a tremendous step towards 
making the United States more competitive, and we encourage 
Congress to pass tax reform now.
    Regulatory relief is also a priority, and the National 
Ocean Policy is a step in the wrong direction and is already 
increasing the level of uncertainty, and left intact, will for 
years to come. It is an aggressive regulatory action in search 
of a problem. It lacks statutory authority, is overly broad, 
and will add layers of bureaucracy that will stifle economic 
growth and job creation. It should be rescinded. Until or 
unless that occurs, Congress should continue to aggressively 
review its implementation and deny it funding.
    Thank you.
    [The prepared statement of Mr. Guith follows:]

    Prepared Statement of Christopher Guith, Senior Vice President, 
           Global Energy Institute, U.S. Chamber of Commerce
    Thank you, Chairman Sullivan, Ranking Member Peters, and members of 
the Committee. I am Christopher Guith, senior vice president of the 
Global Energy Institute (Institute), an affiliate of the U.S. Chamber 
of Commerce, the world's largest business federation representing the 
interests of more than three million businesses of all sizes, sectors, 
and regions, as well as state and local chambers and industry 
associations, and dedicated to promoting, protecting, and defending 
America's free enterprise system.
    The mission of the Institute is to unify policymakers, regulators, 
business leaders, and the American public behind a common sense energy 
strategy to help keep America secure, prosperous, and clean. In that 
regard we hope to be of service to this Committee, this Congress as a 
whole, and the administration.
    Thank you for convening this hearing. The business community views 
the National Ocean Policy, which was set in motion by an Executive 
Order from President Obama, as an unnecessary, bureaucratic, and 
unauthorized regulatory action that creates significant risk and 
uncertainty to both private and public sector investment and legal 
regulatory processes already in place. This policy has been developed 
with little transparency and notice from the American businesses and 
other stakeholders that the policy could impact most. We applaud this 
Subcommittee, and Congress at large, for utilizing its oversight 
function to examine the National Ocean Policy and highlight the new and 
unnecessary barriers it has created that jeopardize economic growth.
    The impacts on fishing, shipping, infrastructure development, and 
offshore energy, like oil and natural gas production and wind 
generation, are clear. While this policy is putatively focused on 
oceans, the Final Recommendations of the Interagency Ocean Policy Task 
Force make it clear that the policy's impacts eventually will not stop 
at the coastline. Through a myriad of drawn-out arguments, the 
recommendations allow for regulatory coverage of virtually every bit of 
land and any entity operating or living on it. Agriculture, 
construction, and manufacturing are squarely within the potential reach 
of this policy. Moreover, onshore energy operations like mining, oil 
and natural gas production, and electricity generation are also 
vulnerable to new regulatory actions. To be sure, the reach could be 
economy-wide. These actions will be taken not only without statutory 
authorization, but in the face of continued Congressional opposition as 
expressed via the appropriations process.
Rationale
    Healthy and sustainable oceans are absolutely in the national 
interest. Congress has seen fit to enact dozens of laws to ensure this 
interest. Together with hundreds of state laws, a framework has been 
created to do precisely what the National Ocean Policy ostensibly will 
do. The authority to implement such a policy is purportedly based on 
many Federal statutes. At no point in this policy's promulgation, 
however, did the Obama Administration suggest that is was explicitly 
supported by Congressional intent under any individual statute or 
combination of statutes. The regulatory record argues the creation of 
this new regulatory structure is needed to allocate ocean use through 
Coastal and Marine Spatial Planning and to ``strengthen the governance 
structure.'' Both purposes should give everyone pause, including, 
anyone who ever intends to enjoy the beach or ocean, and anyone 
concerned about jobs and economic growth.
    Coastal and Marine Spatial Planning under the National Ocean Policy 
is a concept that, if implemented, would limit specific areas of an 
ocean for particular uses. This is a solution to a problem that does 
not appear to currently exist. It is true some areas of the ocean are 
already designated for uses that may preclude additional uses. For 
example, significant swaths are designated for use by the Department of 
Defense and National Marine Sanctuaries. If, however, a specific use of 
ocean waters otherwise precludes another use, there are existing 
avenues through statute and common law to resolve such a question. 
Allowing unelected Regional Planning Bodies to essentially ``zone'' 
state and Federal waters, as in the case of the National Ocean Policy, 
is not authorized in any statute, nor is it remotely envisioned by any 
previous Congressional action. If economic growth is a priority, 
Congress should take note that these planning authorities are expressly 
empowered by the policy to limit commercial endeavors at will, despite 
no clear statutory authority.
    This may sound alarmist, but it is the obvious outcome given the 
vagueness of the policy itself and the non-transparent fashion in which 
it was created. The previous administration's Interagency Policy Task 
Force provided little analysis or even description for the problems its 
recommendations allege to address. More troubling still is that the 
Task Force Recommendations and the subsequent Executive Order provide 
little, if any, constraint or even oversight that might otherwise allay 
concern over potentially severe negative impacts. While technically not 
regulations per se, the Executive Order mandates that agencies 
implement marine plans and the National Ocean Policy overall to the 
fullest extent, including through regulations. The entire policy is 
overly vague, which only magnifies the concerns any current or 
potential ocean user should have.
    These concerns are no longer prospective. In the seven years since 
its creation, implementation of the National Ocean Policy has shown 
these concerns are well-founded. The creation and operation of Regional 
Planning Bodies in the Northeast and Mid-Atlantic have already given 
rise to forced and exclusionary efforts to create regional plans that 
can be used to preclude recreation and economic activity. In ordaining 
these bodies, the Federal Government committed to ensuring agency 
actions, ``use the Plan[s] to inform and guide its actions and 
decisions.'' These bodies consist solely of governmental officials with 
no representation of the industries they intend to regulate.
Breadth
    The facet of this policy that inspires our greatest concern is its 
potential breadth. On several occasions, the policy explicitly suggests 
that any and all activities on shore could come under the regulatory 
reach of the regional planning authorities. The policy explicitly calls 
for addressing, ``urban and suburban development,'' as well as ``land 
based source pollutants.'' Given the previous administration's well-
documented regulatory overreach on numerous ``land based pollutants''--
some of which were at least nominally authorized by statute--it does 
not require a vivid imagination to foresee future administrations using 
this policy as an unchecked regional planning authority attempting to 
take action on inland activities that it finds are having an impact on 
ocean waters.
    The Coastal and Marine Spatial Planning section explicitly allows 
for the regional planning authorities to include upland areas. In fact, 
this policy finds that current conditions, ``necessitate connecting 
land-based planning efforts with ocean, coastal, and Great Lakes 
planning.'' The policy continues to find that existing statutory 
authorities such as the Clean Air Act and the Clean Water Act should be 
harnessed by the planning authorities when allocating ocean use.
    The policy utilizes the overly broad and vague term ``industries'' 
when describing ``human activities'' that are ultimately impacting the 
oceans, which presumably then can fall under the regulatory reach of 
this action. However, it also explicitly targets certain specific 
industries by name including energy, agriculture, forestry, and 
development.
    The policy provides the following concern as context for why and 
how action should be taken:

        ``Urban and suburban development, including the construction of 
        roads, highways, and other infrastructure . . . can adversely 
        affect the habitats of aquatic and terrestrial species.''

    Infrastructure developers must already negotiate a byzantine 
regulatory labyrinth that often leads to costly delays. Superimposing 
the will of a regulatory planning authority on top of this process has 
the very real potential of precluding many of the infrastructure 
projects the country needs. As Congress and the Trump administration 
continue preliminary plans to bolster infrastructure investment, the 
National Ocean Policy stands as an unnecessary and unauthorized 
obstacle.
    Not only does the National Ocean Policy allow for the inclusion of 
virtually every sector of private enterprise to fall under new 
regulation, but it also brings to bear the ``precautionary approach,'' 
a new prism by which the prospective regulatory actions are viewed.
    The precautionary approach--also commonly referred to as the 
Precautionary Principle--was adopted in 1992 by the United Nations 
Conference on Environment and Development in Rio De Janeiro, Brazil 
(``The Rio Declaration''). The Rio Declaration states, ``[w]here there 
are threats of serious or irreversible damage, lack of full scientific 
certainty shall not be used as a reason for postponing cost-effective 
measures to prevent environmental degradation.''
    The intent of employing this precautionary approach is to preclude, 
stop, or otherwise take regulatory action against human activity when 
there exists the possibility that future scientific conclusions may 
find such activity is linked to environmental degradation. As a 
practical matter, then, the precautionary principle states that unless 
there is currently accepted scientific finding that a specific proposed 
human activity does not cause environmental degradation, it should be 
limited at least until such a finding is determined.
    While similar regulatory formulas are explicitly called for in 
statute where Congress intended to preserve the status quo, they are 
few and far between. By preemptively utilizing the precautionary 
approach in such a broad context, this policy reorders our existing 
regulatory construct by shifting the burden of disproving environmental 
harm to those intending to engage in a specific activity as opposed to 
allowing such activities until environmental harm is proven. Since the 
policy clearly seeks to include land-based human activities under its 
regulatory purview, the precautionary approach may presumably be 
applied to any such activities. This reversal is not sanctioned under 
any statutory authority and has previously been rejected by Congress. 
This is a significant shift in regulatory policy and law, and will 
undoubtedly have a chilling effect on many forms of enterprise and 
economic activity, most especially technological innovation.
Impacts
    The National Ocean Policy will result in a plethora of impacts on 
the country. The stated impact of healthier and more sustainable oceans 
may or may not be one of them. One impact that has already come from 
this policy is increased regulatory uncertainty. The recent regulatory 
overreach has permeated so many areas of commercial enterprise already, 
ranging from healthcare to financial services, labor relations, and 
energy production, to name just a few. While the National Ocean Policy 
was first being implemented, the previous administration cited it as 
justification for placing more than 94 percent of Federal waters off-
limits for energy development.
    Businesses of all sizes and sectors are impacted by these 
regulatory actions and will be attempting to determine the ultimate 
impacts on their operations for years, if not decades, to come. We 
estimate that more than 190,000 regulations have been promulgated since 
1976. The National Association of Manufacturers concluded that the 
total cost of Federal regulations to the U.S. economy in 2012 was over 
$2 trillion. The National Small Business Association estimates the 
average regulatory cost for each employee of a small business exceeds 
$12,000 per year and an astounding $83,000 for a start-up. Ultimately, 
additional uncertainty makes it difficult, if not impossible, for any 
business to modify its operations to ensure both compliance and 
profitability with any level of surety.
    The National Ocean Policy exacerbates this uncertainty and adds yet 
another maze of real or de facto regulation for businesses to attempt 
to navigate. As an illustration, the attached flow chart provides a 
daunting visual representation of how byzantine and over-broad this new 
bureaucracy is. This may in turn lead to even less investment in areas 
such as infrastructure construction, manufacturing, and energy 
production. These are all areas that have significant track records of 
generating economic growth for the nation, as well as creating millions 
of jobs. By discouraging investment into energy production, this ocean 
policy has the potential to close off even more off-shore areas, 
harming our energy security by forcing the country to continue to 
import energy we could be producing domestically. It is no secret that 
oil and natural gas production on Federal lands has been flat or 
declining while production on private lands has been soaring. This 
policy could make this disparity even worse to the detriment of our 
energy security.
Conclusion
    At a time everyone desires greater economic growth, the country is 
looking to its leaders to put an end to unnecessary red tape and get 
the economy moving again. Comprehensive tax reform would be a 
tremendous step forward towards making the United States more 
competitive, and we encourage Congress to pass tax reform now. 
Additionally, regulatory relief is crucial for encouraging greater 
capital investment. This investment will not only generate economic 
growth, but create jobs in nearly all sectors. The National Ocean 
Policy is a step in the wrong direction and is already increasing the 
level of uncertainty, and left intact, will for years to come.
    Over the last decade, American business has been the target of a 
regulatory onslaught of historic proportions. The National Ocean Policy 
is only one example. Fundamentally, it is an aggressive regulatory 
action in search of a problem. It lacks statutory authority, is overly-
broad, and will add layers of bureaucracy that will stifle economic 
growth and job creation. It should be rescinded. Until and unless that 
occurs, Congress should continue to aggressively review its 
implementation and deny it funding.

    Senator Sullivan. Thank you, Mr. Guith.
    Mr. Keppen.

         STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, 
                      FAMILY FARM ALLIANCE

    Mr. Keppen. Good afternoon, Chairman Sullivan and Ranking 
Member Peters and members of the Subcommittee. My name is Dan 
Keppen, and on behalf of Family Farm Alliance, I thank you for 
this opportunity to present this testimony on the implications 
of the administrations--or the Trump administration--the Obama 
administration's National Ocean Policy. The alliance is a 
grassroots organization of family farmers, ranchers, irrigation 
districts, and allied industries in the 16 western states.
    Some of you today may be wondering, why is an organization 
that represents family farmers and ranchers in the mostly 
inland West concerned with a policy that would appear to apply 
more to the ocean and coastal communities? We have monitored 
this issue for some time and have formally raised concerns with 
how this policy would be implemented.
    The policy sets forth yet another level of Federal 
management and oversight intended to improve the way inland 
ocean and coastal activities are managed. Unfortunately, this 
has the potential to impose negative impacts, intended or not, 
on the western interests we represent.
    We fear that the Federal Regional Planning Bodies proposed 
under the Ocean Policy framework could dramatically increase 
the role of Federal agencies on inland areas. As the Federal 
presence grows, so must the diligence of producers, who must 
closely monitor agency actions directed from afar and spend 
valuable time and resources doing so. Some of us have learned 
the hard way: if you're not at the table, you'll end up on the 
menu.
    The National Ocean Policy would also establish a framework 
for collaboration and a shared set of goals to promote 
ecosystem-based management. This would allow new regional 
planning bodies to potentially impact activities that occur on 
lands that drain into the ocean. This objective involves vague 
and undefined goals and policies. We know from experience that 
these can be used by critics of irrigated agriculture as a 
basis for actions to stop or delay federally permitted 
activities.
    We believe the National Ocean Policy will affect already 
budget-strapped agencies that interact closely with western 
agricultural irrigators. As Federal budgets are further reduced 
or remain flat, it is unclear how much funding the agencies are 
taking from existing programs to develop and implement this 
initiative.
    Finally, we believe there's a high risk of unintended 
economic and societal consequences associated with implementing 
this policy. The National Ocean Policy creates the potential 
for unforeseen impacts to inland areas like agriculture. The 
family farmers and ranchers we represent are part of a $172 
billion contribution that western irrigated agriculture makes 
to our economy every year.
    Our producers also contribute to a luxury all our nation's 
citizens enjoy: spending less of their disposable income on 
food than anywhere else on the planet. Consumer spending drives 
economies. Inexpensive safe food helps drive consumer spending.
    We must move away from spending Federal funds to support 
new bureaucracies and procedures that could lead to further 
uncertainty, restrictions, and delays in food production. 
Instead, taxpayer dollars should be allocated to existing and 
proven entities, programs, and activities that have already 
been authorized.
    Given these concerns, we believe the Federal Government 
should vacate the existing Executive order. Instead, 
stakeholders should be engaged to ensure effective, 
transparent, and beneficial ocean policies under existing 
statutory frameworks. The government should only support 
policies that enable us to maximize our nation's economic and 
societal benefits from our oceans. We must avoid unnecessary 
duplication and confusion.
    The Family Farm Alliance and the farmers and water 
management organizations we work with are willing to implement 
pragmatic actions. They seek to find a sustainable balance of 
environmental protection and economic prosperity. Farmers are 
producers. When they set out to do something, their mindset is 
to get results, to get something done, and generate a tangible 
output for their efforts. That is why farmers and ranchers and 
certain constructive environmental groups work so well 
together.
    Our organization seeks to collaborate with those groups 
that also seek positive results as an objective. The foundation 
for some true collaborative solutions will be driven from the 
constructive center. This approach steers away from the 
conflict that can ensue between new regulatory outreach and 
grassroots activism intended to resist any changes to existing 
environmental and natural resource laws, regulations, and 
policies.
    We don't need to create new processes and planning groups 
to tackle pressing marine challenges. Instead, existing 
collaborative programs that have proven successful should be 
given emphasis and perhaps be used as templates to duplicate 
that success elsewhere.
    American farmers and ranchers for generations have grown 
food and fiber for the world. We will have to muster even more 
innovation to continue to meet this critical challenge. That 
innovation must be encouraged by our government rather than 
stifled with new Federal regulations and uncertainty over water 
supplies or irrigated farms and ranches in the rural West. We 
welcome your leadership to help make that possible. We're 
pleased that your Subcommittee is paying attention and 
providing this opportunity to voice our concerns.
    Thank you for the chance to provide this testimony today.
    [The prepared statement of Mr. Keppen follows:]

         Prepared Statement of Dan Keppen, Executive Director, 
                          Family Farm Alliance
    Chairman Sullivan, Ranking Member Peters and Members of the 
Subcommittee: My name is Dan Keppen, and on behalf of the Family Farm 
Alliance (Alliance), I thank you for this opportunity to present this 
testimony on the implications of the Obama Administration's National 
Ocean Policy (NOP). The Alliance is a grassroots organization of family 
farmers, ranchers, irrigation districts, and allied industries in 16 
Western states. The Alliance is focused on one mission: To ensure the 
availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers. We are also committed to the fundamental 
proposition that Western irrigated agriculture must be preserved and 
protected for a host of economic, sociological, environmental, and 
national security reasons--many of which are often overlooked in the 
context of other national policy decisions.
    The Family Farm Alliance is respected for its reputation in helping 
to solve Western water challenges in a constructive manner. The Western 
family farmers and ranchers who we represent are confronted with many 
critical issues today. At the top of the list is the daunting number of 
administrative policy and regulatory initiatives that our Western 
agricultural producers face daily.
    Some of you today may be wondering--why is an organization that 
represents family farmers and ranchers in the mostly inland West 
concerned with a policy that would appear to apply more to the ocean 
and coastal communities? We have actually monitored this issue for some 
time and have formally raised concerns with how the Obama 
Administration's ocean policy would be implemented. Specifically, we 
were concerned with the role states and stakeholder user groups would 
play within this policy. We had questions about whether the potential 
impact on the economy, budget, and existing statutes and regulatory 
processes had been assessed. For example, how would this complement or 
conflict with the authority of states? Many of our farmers and ranchers 
have been impacted by implementation of Federal environmental laws 
intended to protect ecosystems far-removed from their operations. For 
these reasons, we remain concerned that this policy could dramatically 
increase the role of Federal agencies on inland rivers and adjacent 
lands, as further outlined in this testimony.
Importance of Western Irrigated Agriculture and Key Challenges
    Irrigated agriculture in the West not only provides a $172 billion 
annual boost to our economy, it also provides important habitat for 
western waterfowl and other wildlife, and its open spaces are treasured 
by citizens throughout the West. Family farmers and ranchers are 
willing to partner with constructive conservation groups and government 
agencies, especially if there are opportunities to both help strengthen 
their businesses and improve the environment.
    Still, many Western producers face significant regulatory and 
policy related challenges, brought on--in part--by Federal agency 
implementation of environmental laws and policies. The challenges are 
daunting, and they will require innovative solutions. The Family Farm 
Alliance and the farmers and water management organizations we work 
with are dedicated to the pragmatic implementation of actions that seek 
to find a sustainable balance of environmental protection and economic 
prosperity. Farmers are producers; when farmers set out to do 
something, their mindset is to get results, to get something done, and 
generate a tangible output for the effort. That is why farmer and 
ranchers and certain constructive environmental groups work well 
together.
    All too often, unfortunately, environmental policy is not driven to 
achieve meaningful results. That is why our organization seeks to 
collaborate with those groups that also seek positive results as an 
objective. The foundation for some true, collaborative solutions will 
be driven from the constructive ``center'', one that steers away from 
the conflict that can ensue between new regulatory overreach and 
grassroots activism intended to resist any changes to existing 
environmental and natural resource laws, regulations, and policies.
Background of Executive Order 13547
    On July 19, 2010 President Obama signed Executive Order 13547 to 
adopt the final recommendations of the Interagency Ocean Policy Task 
Force to implement a new NOP. The policy set up a new level of Federal 
management intended to improve the way inland, ocean and coastal 
activities are managed. Unfortunately, this has the potential to impose 
impacts--intended or not--across a spectrum of sectors, including the 
Western agricultural organizations we represent.
    The National Ocean Policy made it clear that activities that might 
adversely affect the ocean ecosystems might also be impacted--no matter 
how far inland they may occur.\1\ While the NOP stated that this policy 
or marine planning ``creates or changes regulations or authorities'', 
it also proposed that agencies would ``coordinate to use and provide 
scientifically sound, ecosystem-based approaches to achieving healthy 
coastal and ocean habitats.'' The NOP further stated that ``effective 
implementation would also require clear and easily understood 
requirements and regulations, where appropriate, that include 
enforcement as a critical component'' \2\ and that the Executive Order 
mandates that Federal agencies make all their actions consistent with 
the NOP and any related plans.'' \3\ From our standpoint, this 
presented some uncertainty as to how the Federal Government in the 
future intended to either revise existing regulations or impose new 
regulations on activities that were already permitted.
---------------------------------------------------------------------------
    \1\ The Final Recommendations, which were adopted by the 2010 
Executive Order (see language in Section 9(c) state: ``. . . the 
geographic scope of the CMSP (Coastal and Marine Spatial Planning) area 
in the United States would not include upland areas unless a regional 
planning body determines to include them.'' (emphasis added). ``The 
geographic scope [of CMSP] would include inland bays and estuaries in 
both coastal and Great Lakes settings. . . . Additional inland areas 
may be included in the planning area as the regional planning bodies . 
. . deem appropriate. Regardless, consideration of inland activities 
would be necessary to account for the significant interaction between 
upstream activities and ocean, coastal, and Great Lakes uses and 
ecosystem health.''
    \2\ https://obamawhitehouse.archives.gov/files/documents/
OPTF_FinalRecs.pdf
    \3\ See Section 6(a) at https://obamawhitehouse.archives.gov/files/
documents/2010stewardship-eo.pdf
---------------------------------------------------------------------------
Support for Voluntary Incentive-Driven Provisions
    The Family Farm Alliance has long advocated a voluntary, incentive-
driven philosophy to advance conservation, and thus we supported the 
NOP's intent to provide financial assistance to private landowners 
seeking to apply voluntary conservation practices. While we were 
pleased to see the NOP acknowledge that ``collaborative watershed 
restoration efforts are important to the overall success of coastal and 
marine habitat conservation,''--a principle we also embrace--this 
acknowledgement did little to alleviate our over-arching concerns about 
the uncertainties associated with the expansive and uncertain nature of 
the NOP. We continue to strongly believe that, rather than creating new 
processes and planning groups to tackle pressing marine challenges, 
existing collaborative programs that have proven successful should be 
given emphasis and perhaps be used as templates to duplicate that 
success elsewhere.
    The NOP points to restoration efforts for Pacific Northwest salmon 
as an ``excellent example of collaborative, voluntary upland watershed 
conservation and restoration.'' We agree that there are good examples 
of successful partnerships involving farmers and ranchers and 
anadromous fish recovery projects on the West coast, to wit:

  <bullet> The NOAA Fisheries Recovery Plan for Oregon Coast Coho 
        Salmon calls for public-private partnerships to conserve 
        habitat for the threatened species, positioning coho for 
        possible removal from the Federal list of threatened and 
        endangered species within the next 10 years. The plan is 
        voluntary, not regulatory, and hinges on local support and 
        collaboration. The plan promotes a network of partnerships that 
        integrate the needs of Oregon Coast coho with the needs of 
        coastal communities.

  <bullet> The Yakima River Basin Integrated Plan in Washington State 
        is the result of a collaborative effort on the part of 
        irrigators, environmentalists, local governments, the Yakama 
        Nation, the Federal Government, and the State of Washington. 
        The plan looks to improving water for farms, fish and the 
        environment in a manner that does not pit one use against 
        another. Anadromous fish runs are already benefiting from this 
        forward-thinking partnership.

    Unfortunately, in other parts of the Northwest, this collaborative 
philosophy approach is less visible, as underscored by last year's 
decision by U.S. District Judge Michael H. Simon, who ruled the 
government hasn't done nearly enough to improve Northwest salmon runs 
on the Columbia River. ``These efforts have already cost billions of 
dollars, yet they are failing,'' he wrote in May 2016. Now, certain 
environmental groups say the Lower Snake River Dams--which fuel much of 
the Northwest's power supply and make possible irrigation for farms and 
navigation for agricultural commodities--are the problem, and must come 
down. As further described below, our members fear that the ``federal 
regional planning bodies'' proposed under the Ocean Policy framework 
could dramatically increase the role of Federal agencies on inland 
rivers and adjacent lands, including all uses (agriculture, irrigation, 
ports, etc.), at a time when Northwest hydropower dams are the topic of 
ongoing litigation driven by certain litigious environmental groups.
Concerns of Western Family Farmers and Ranchers
    The Family Farm Alliance certainly supports the goals of the NOP, 
which are intended to guide Federal agencies to ``ensure the 
protection, maintenance, and restoration of the health of ocean, 
coastal and Great Lakes ecosystems and resources, enhance the 
sustainability of ocean and coastal economies, preserve our maritime 
heritage, support sustainable uses and access, provide for adaptive 
management to enhance our understanding of and capacity to respond to 
climate change and ocean acidification, and coordinate with our 
national security and foreign policy interests.'' However, we have some 
grave concerns that extend beyond this broad intent.
Funding concerns
    We believe NOP will affect already budget-strapped agencies that 
interact closely with Western agricultural irrigators, including the 
U.S. Department of Agriculture (USDA), the National Oceanic and 
Atmospheric Administration (NOAA), the Departments of Commerce and the 
Interior, the Environmental Protection Agency (EPA), and the Army Corps 
of Engineers. Despite USDA's involvement in the National Ocean Policy 
over the past fours, the full extent of the department's activities and 
role in the process is not clear. As Federal budgets are further 
reduced or remain flat, it is unclear how much funding the agencies are 
taking from existing programs to develop and implement this new 
initiative.
Uncertain Impacts to Inland Areas
    The NOP proposes that, working through the U.S. Coral Reef Task 
Force, agencies will coordinate to address key threats to coral reef 
ecosystems, including impacts from land-based sources of pollution. 
Through ``more effective use'' of voluntary programs, partnerships, and 
pilot projects, agencies will work to ``reduce excessive nutrients, 
sediments, and other pollutants''. The NOP would also establish a 
framework for collaboration and a shared set of goals to promote 
``ecosystem-based management'', where agencies will ``develop 
principles, goals, and performance measures'' that support this 
management philosophy.
    The ``Ecosystem-based management'' authority created by this 
executive order would allow federally-dominated Regional Planning 
Bodies to reach as far inland as they deem necessary to protect ocean 
ecosystem health. It could potentially impact all activities that occur 
on lands adjacent to rivers, tributaries or watersheds that drain into 
the ocean. For example, although the policy was portrayed by the Obama 
Administration as primarily targeting ocean-related activities, the 
National Ocean Policy Final Recommendations adopted by the 2010 
Executive Order specifically stated that the policy plans to address 
``the major impacts of urban and suburban development and agriculture--
including forestry and animal feedlots.'' \4\
---------------------------------------------------------------------------
    \4\ https://obamawhitehouse.archives.gov/files/documents/
OPTF_FinalRecs.pdf
---------------------------------------------------------------------------
    The ``ecosystem based management'' authority involves vague and 
undefined objectives, goals, and policies that we know from experience 
can be used by critics of irrigated agriculture as the basis for 
negative media or lawsuits to stop or delay Federally-permitted 
activities. For example, the National Marine Fisheries Service (NMFS) 
has determined that Central Valley salmon populations will go extinct 
unless government agencies change their water operations in California. 
In a draft biological opinion, NMFS concluded that the southern 
resident population of killer whales might go extinct because its 
primary food--salmon--is imperiled by California's network of dams and 
canals. Similar linkages between these orcas and potato farmers 
(located hundreds of miles from the Pacific Ocean) were contemplated as 
a biological opinion was being drafted by NMFS for the Klamath 
Irrigation Project, located in the high desert of southern Oregon. The 
NOP opens the possibility of further emphasizing such `ecosystem-based' 
relationships. Further, the NOP sets up `pre-application consultations' 
where requested Federal permits would be subject to additional 
consultation processes prior to any formal consideration.
    Another example of Federal overreach in my home state of Oregon, 
NMFS is being criticized for issuing land use commands to local 
governments in the name of protecting anadromous species. NMFS is 
currently under fire for insisting that communities adopt federally-
driven land use restrictions meant to help endangered species like 
salmon and steelhead in order to be eligible for Federal flood 
insurance program coverage.\5\ This, even though neither the flood 
insurance program nor FEMA, which administers it, has any power over 
land use. In an editorial last year, the Eugene Register-Guard noted 
that the NMFS restrictions had the potential to ``place floodplains in 
271 communities off-limits to development, agriculture and forestry.'' 
Affected regions, the paper wrote, would include not just significant 
municipal areas, but ``swaths of farm and forest land.''
---------------------------------------------------------------------------
    \5\ ``Feds turn flood insurance into a tool for land grabs in 
Oregon'', Damien Schiff for the Capital Press, November 20, 2017.
---------------------------------------------------------------------------
    Traditionally, land use is a local and regional responsibility. At 
the Family Farm Alliance, we strongly advocate that the best decisions 
in resources management are made at the local level. In a state where 
local communities must adhere to some of the most extensive land use 
regulations in the country, some point to the NMFS actions in Oregon as 
proof positive that future implementation of the vague NOP will lead to 
similar expanded intrusion by other Federal interests.
    Finally, we believe there is a high risk of unintended economic and 
societal consequences associated with implementing this policy, due in 
part to the unprecedented geographic scale under which the policy is to 
be established. As set forth, the National Ocean Policy creates the 
potential for unforeseen impacts to inland sectors such as agriculture, 
which is connected via the ``ecosystem''-based approach to the ocean. 
The family farmers and ranchers we represent are part of a $172 billion 
annual contribution--made up of direct irrigated crop production, 
agricultural services, and the food processing and packaging sectors--
the ``Irrigated Agriculture Industry'' makes to our economy every year. 
Our producers also contribute to the fact that our Nation's citizens 
spend less of their disposable income on food than anywhere else in the 
world--a luxury only Americans enjoy.
The Need to Consolidate--and not Complicate--Existing Fisheries 
        Management Efforts
    Western watersheds that drain to the Pacific Ocean are home to many 
species of fish, some of which are listed as ``endangered'' or 
``threatened'' under the Federal Endangered Species Act (ESA) and fall 
under the responsibility of NMFS and U.S. Fish and Wildlife Service 
(USFWS) but have different migration patterns or life histories, often 
leading to duplicative and sometimes overlapping actions by each of the 
agencies under the ESA. Several of these species--like the Lost River 
and Short Nose suckers in the Upper Klamath Basin, the Delta Smelt in 
the Sacramento-San Joaquin River & San Francisco Bay-Delta, and the 
bull trout in the Upper Snake River--spend their entire lives in 
freshwater. Other anadromous species--such as the coho salmon in the 
Lower Klamath River, chinook salmon in California's Central Valley, and 
salmon and steelhead in the Columbia River--spawn in freshwater, 
migrate to the ocean to mature, and return to spawn in freshwater. 
Still other species are polymorphic: an individual O.mykiss may live 
its entire life in freshwater, in which case the fish is a rainbow 
trout, or that fish may ultimately spend part of its life in the ocean, 
in which case it is a steelhead and potentially subject to NMFS 
jurisdiction if listed under the ESA.
    The scope of similar or identical ESA actions performed by each 
agency can be extensive, and include designating critical habitat, 
developing and implementing recovery plans for endangered and 
threatened species, and more. It would seem intuitive to many that 
these functions would most effectively and efficiently be conducted 
under the roof of one government agency and not be arbitrarily split 
between two different agencies housed in two completely different 
Federal departments. In fact, up and down the West coast--from 
California's Central Valley Project, to the Upper Snake River Basin in 
Idaho, to the Klamath Irrigation Project in Oregon and California--
duplicative bureaucracies are generating ESA plans that sometimes 
compete with one another. When push comes to shove, water users are 
left to wonder, ``how do we do satisfy both agencies, and still provide 
water for our farms and communities?'' In some cases, the farms and 
communities don't get the water, as demonstrated by the devastating, 
regulatory-driven curtailment of water to rural communities in 
California's Central Valley (in 2009, and 2014-2016) and the Klamath 
Project in 2001.
    The NOP--in our view--provides potential to further these types of 
unfortunate examples. Instead, we should be looking for ways to 
streamline, improve and consolidate Federal resource management 
efforts. We need to be sure that new planning groups and programs are 
necessary and do not waste public resources. One example of a proposal 
that would streamline and improve management of fisheries on the West 
coast is embedded in H.R. 3916, the ``Federally Integrated Species 
Health (FISH) Act.'' This bill would amend the ESA to vest in the 
Secretary of the Interior functions under that Act with respect to 
species of fish that spawn in fresh or estuarine waters and migrate to 
ocean waters, and species of fish that spawn in ocean waters and 
migrate to fresh waters. We believe that by combining the ESA 
implementation responsibilities of both NMFS and FWS under one Federal 
roof, we would promote more efficient, effective, and coordinated 
management of all ESA responsibilities for anadromous and freshwater 
fish in Western watersheds, from the highest reaches of our headwaters 
to the Pacific Ocean.
Recommendations
    Rather than expend Federal funds to support policies that create 
new bureaucracies, procedures and regulations that could lead to 
further uncertainty, restrictions and delays, scarce taxpayer dollars 
should be allocated to existing entities, programs and activities that 
have been authorized by Congress and are necessary for businesses and 
the economy to properly function. Given these concerns, the Family Farm 
Alliance earlier this year signed letters to U.S. House and Senate 
Appropriations Committee leadership and President Trump in support of 
(1) appropriations language that would be restrictive of the National 
Ocean Policy; and (2) executive action to vacate the Obama-era National 
Ocean Policy Executive Order and alternatively engage stakeholders to 
ensure effective, transparent, and beneficial ocean policies under 
existing statutory frameworks. We reiterate our call for these actions 
in this testimony.
Conclusions
    In a time when our Nation is beginning to return to the path of 
economic prosperity, we cannot support the creation of an expansive, 
new Federal watershed planning program, particularly for those states 
that have existing, productive watershed programs in place. Federal 
participation should be channeled through existing state and local 
programs, rather than creating uncertainty through potentially 
cumbersome new Federal requirements which threaten to derail important 
water quality and water conservation projects already underway. And, we 
need to focus Federal ESA-listed fish management within one agency.
    American family farmers and ranchers for generations have grown 
food and fiber for the world, but we will have to muster even more 
innovation to continue to meet this critical challenge. That innovation 
must be encouraged by our government rather than stifled with new 
Federal regulations and uncertainty over water supplies for irrigated 
farms and ranches in the rural West. We welcome this committee's 
leadership to help make that possible.
    We look forward to working with you and other Members of Congress 
towards this end.
    Thank you for this opportunity to provide this testimony today.

    Senator Sullivan. Thank you, Mr. Keppen.
    Ms. Metcalf.

   STATEMENT OF KATHY METCALF, PRESIDENT AND CEO, CHAMBER OF 
                      SHIPPING OF AMERICA

    Ms. Metcalf. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify, Ranking Member Peters, members of the 
Subcommittee. I'm going to take 15 seconds and do something 
that some of your public affairs people would cringe at, and 
that is throw my notes behind me because I'm sitting here 
listening to the other testimony, and I'm beginning to realize 
that we all don't disagree that much, that there's a concept at 
play here, a need for collaboration and coordination in making 
decisions affecting potentially conflicting ocean users. But I 
have to do a little bit of the formal thing.
    So my name is Kathy Metcalf. I'm the President and CEO of 
the Chamber of Shipping of America. I have sailed afloat as a 
deck officer. I have worked over the last 40 years in the 
maritime industry.
    I am proud to lead the Chamber. And our chamber is made up 
of a number of members that own and operate and charter 
oceangoing vessels of a variety of types. We conduct operations 
throughout the United States, including, Senator Peters, the 
Great Lakes. Our focus is not only on assisting our members on 
what they have to do today to comply, but what they will have 
to do tomorrow to comply or to become or maintain the position 
of being good environmental citizens.
    Shipping is the global engine for trade, handling almost 80 
percent of the U.S. imports and exports, valued at over $1 
trillion, 13 million jobs, $14.4 billion in GDP. But the 
National Ocean Policy, from our perspective, at its core, is 
about good governance. I looked at that diagram, and I wanted 
to run for the hills, but I've also seen a diagram of the 
Federal Government that doesn't look all that different, the 
government that already exists within the executive branch, and 
it's that part of the executive branch that needs to be 
compelled to work together to make decisions that are smart for 
America, smart for the marine environment, and smart for ocean 
users.
    As you indicated, this is not a bipartisan issue, nor 
should it be. It was initiated with the second Bush 
administration. It became a little more formalized or a lot 
more formalized with the Obama administration. So our plea to 
you today is please don't throw the baby out with the 
bathwater. There are good pieces of the National Ocean Plan 
that need to be kept. And the concerns of my colleague 
witnesses here need to be looked at and seriously evaluated and 
measures taken to prevent that.
    In my written testimony, I indicated we had concerns with 
it. What happens to the regional planning bodies when they make 
some sort of a decision or some sort of recommendation? Where 
does that actually go? Does it become new state regulations, 
which, from an international shipping perspective, we can't 
afford. We trade through all the United States, the coastal 
United States. We can't have different regulations in every 
state of which we visit.
    And now I have thrown the notes out, so my colleagues 
behind me are probably about ready to fall off their chair.
    The National Ocean Policy encompasses a lot of issues, and 
where we engage and we've found the most beneficial is the use 
of ocean planning as a tool to address priorities. The data 
portal, for instance, is an invaluable set of data for those of 
the shipping industry, and as it has built upon and hopefully 
problem data is corrected with more accurate data, we can have 
a system that people can use to make informed decisions. We 
value this approach to good governance. The Coast Guard 
themselves has indicated the need for good marine spatial 
planning for the purposes of maritime security and maritime 
stewardship.
    Poor planning and lack of consideration for navigational 
safety has the potential to impact all of our values. Regional 
ocean planning is not about new regulations, but it's about 
helping the Federal and State agencies do the jobs you've given 
them in already existing statutes.
    We--my colleague, Director of Maritime Affairs, has worked 
with the Northeast and the Mid-Atlantic, and we have found 
positive developments there. We still have concerns about what 
happens to these decisions, and that needs to be clarified. It 
needs to be made clear that these just not go off into some 
other legal stratosphere and then suddenly become detriments to 
the operation of the industries that use the world's oceans.
    In closing, I hope this Subcommittee will allow industries 
to continue to work with the Federal agencies and states within 
this format or some revised format. Without it, we will be 
limited in our ability to adapt to the complex and rapidly 
changing maritime domain.
    And I might add I've got some really good examples of where 
coordination and collaboration have worked very well. I was 
hoping Senator Markey would still be here, particularly in the 
Port of Boston, where we solved an LNG siting problem with a 
safety of navigation problem and protected endangered North 
Atlantic right whales, a perfect example of collaboration. A 
perfect example of lack thereof was one morning when I opened 
an electronic file and I saw lease plots for wind farms sitting 
in the middle of the vessel traffic lanes approaching Hampton 
Roads.
    Thank you for the opportunity, sir.
    [The prepared statement of Ms. Metcalf follows:]

        Prepared Statement of Kathy Metcalf, President and CEO, 
                     Chamber of Shipping of America
    The Chamber of Shipping of America (CSA) is a membership based 
organization that acts as a subject matter expert on marine issues 
including those domestic and international legislative, regulatory, and 
administrative issues that fall under our expertise. We represent a 
membership of companies that own, operate, charter, or maintain a 
commercial interest in ocean-going tanker, container and dry bulk 
vessels operating in both the domestic and international trades. Our 
member companies conduct operations internationally and domestically in 
all major ports in the United States, including Alaska, the Gulf of 
Mexico, and the East and West coasts of the United States. With more 
than thirty organizations depending on our representation, we speak for 
a diversity of interests including freight, oil and gas transportation, 
marine spill response, marine vessel inspection and compliance 
programs, and technology development over a wide array of ocean faring 
industries. Our focus is not only on assisting our member companies in 
compliance with existing requirements but also on future requirements 
likely to be imposed on the maritime industry with the goal of 
assisting in the design of these new requirements in a manner which is 
economically feasible, operationally practical and with due regard to 
safe and environmentally responsible operations.
    I graduated from the U.S. Merchant Marine Academy and have worked 
in the maritime sector for almost 40 years. I am currently the 
President and CEO of the Chamber of Shipping of America. Prior to that, 
I have held positions in the energy industry including deck officer 
aboard large oceangoing tankers, marine safety and environmental 
director, corporate regulatory and compliance manager, and state 
government affairs manager. I have served the maritime industry for my 
entire career.
    Ports, container ships, bulk carriers, tankers, and the tug and 
barge industry are all working to move cargo into and out of U.S. 
ports. Shipping is the global engine for trade handling almost 80 
percent of all U.S. imports and exports, valued at over $1 trillion, 
and this is only expected to increase with the global economy becoming 
more interconnected. We are seeing the largest container vessels in 
history with expansion of the Panama Canal, with tens of thousands of 
containers now coming into U.S. ports each day. The marine 
transportation system supports 13 million jobs and the industry 
contributes over $14.4 billion in GDP. This economic powerhouse and 
integral part of global trade is inherently linked to operations 
happening on the ocean and the ability to move freely and with minimal 
risk on the water.
    The National Ocean Policy at its core is about good governance. 
This policy is the result of decades of research, public outreach, and 
the recommendations of two separate ocean commissions to ensure ocean 
management is done in an effective and coordinated way. Policies of 
this nature were traditionally bi-partisan and should continue to be. 
Discussions on the need for a national ocean plan were initiated by the 
George W. Bush Administration with his ocean commission with additional 
work and a more formal approach implemented by the Obama 
Administration.
    In all candor, I must admit that we viewed the development of a 
National Ocean Policy with regional components with some concern. While 
we were and are still supportive of the need for better coordination of 
ocean policy decisions across all Federal agencies, our concerns were 
initially focused on the potential for regional decisions which did not 
take into account the need for consistent national requirements as 
applied to the maritime industry to ensure the free flow of marine 
transportation assets to and from U.S. ports and in coastal waters. 
These concerns still remain particularly relating to how new state 
regulations, which could result in the proverbial ``patchwork quilt'' 
of different or conflicting requirements across the regions or states, 
would be managed. Should this result, the benefits of transparency, 
engagement of all stakeholders, both public and private, and the 
opportunity to provide input on proposals facilitated by the National 
Ocean Policy framework would be overwhelmed by the negative impacts of 
inconsistent or conflicting requirements as applied to the maritime 
industry which relies on the fundamental principles espoused in the 
Constitution's Admiralty and Commerce clauses, to ensure that a set of 
uniform national requirements are applied to our industry. Our concerns 
thus far have been addressed in the regional ocean plans but can be 
significantly reduced if it is agreed that any regional recommendations 
are vetted upward to the National Ocean Council for further discussion 
and debate. While the Policy is non-regulatory and instead works within 
Federal agencies existing authorities, if future regulatory initiatives 
are initiated they should be done so through the Federal rulemaking 
process which provides the opportunity for comment by all stakeholders. 
We continue to believe that coordination among all the players, 
especially the Federal agencies that have the authority to regulate our 
industry is beneficial and should be encouraged. With this caveat in 
mind, we offer the following comments.
    The National Ocean Policy encompasses a range of ocean issues and 
priorities including marine transportation, addressing illegal, 
unreported, and unregulated fishing, converting offshore oil and gas 
platforms to artificial reefs for fishermen, siting of alternative 
energy installations offshore and resolving ocean user conflicts where 
necessary. Where the Chamber of Shipping of America engages and finds 
the most value in the National Ocean Policy is the opportunity for 
regions to use ocean planning as a tool to address relevant ocean 
priorities. Many of the global shipping companies that we represent are 
well versed in ocean planning as more than 65 countries have ocean 
plans in place around the world. We see this type of marine planning as 
a common-sense approach to ocean management; it should not be about 
politics but instead government efficiency and the ability of Federal 
management agencies to make the best, most informed decisions.
    Ocean planning in the United States is voluntary and regionally-
driven with states requesting Federal agencies to help them address 
their ongoing management challenges. While each region's challenges are 
unique, there are overarching elements of government and permitting 
efficiency that ocean planning creates and that the Chamber supports. 
Interagency coordination, so we can talk with one agency about issues 
that may impact the maritime community rather than with the more than 
20 agencies with jurisdiction over the ocean helps us achieve 
economical, safe and environmentally responsible outcomes for our 
industry. Having good data and information on our industry in one 
central location through regional ocean data portals that helps 
agencies solve conflicts and keeps our mariners safe and our ports 
operational is also key.
    Ladies and gentlemen of the Subcommittee, permitting efficiency and 
streamlining and the ability to access good data to achieve these goals 
is bipartisan and fundamental to good government.
    I am here today to tell you that we see the value in this approach 
to good governance. Our business is built on itineraries, logistics, 
and speed. The data provided through this process helps us achieve 
those and allows agencies like BOEM who permit projects that have the 
potential to overlap with shipping traffic separation schemes and ship 
traffic to make more informed decisions. The result is a reduction in 
conflicts with industry uses resulting in permitting efficiency and 
streamlining for industry and a reduction in costs for permit 
applicants.
    Given this is the Subcommittee on Oceans and the Coast Guard, 
members should understand that the Coast Guard has specifically 
outlined how important marine planning is to their statutory missions. 
The Coast Guard has explicitly stated that ``Effective maritime 
governance has always been, and will continue to be integral to meeting 
Service responsibilities. It requires prioritization and uniformity 
throughout the Coast Guard and coordination of ongoing and projected 
activities with other stakeholders in shaping a consistent national 
approach, while affording operational commanders necessary flexibility 
to accommodate unique regional factors. A comprehensive and well 
integrated concept for the governance, within the bounds of existing 
Coast Guard statutory authorities, applied to the ocean, coastal areas, 
the Great Lakes and inland waterways, will have positive impacts across 
all Coast Guard mission areas.''
    As someone who has been fortunate enough over the years to work 
with the Coast Guard, I can attest to the importance of their mission 
in keeping our mariners safe and our Nation secure. Regional 
coordination and data helps the Coast Guard and the Navy accomplish 
these objectives. As the ocean becomes increasingly crowded with 
recreational uses, shipping, energy development, and other activities, 
comprehensive ocean plans ensure that the Coast Guard can continue to 
carry out its Maritime Security and Maritime Stewardship missions, 
including protecting and managing America's ports and waterways, 
securing our coasts from threats, protecting valuable marine living 
resources, and ensuring the safety of Americans on the water.
    While the ocean may look vast, it is an incredibly busy place. Our 
mariners know more than anyone the potential for use conflicts out on 
the water. The shipping industry operates at a large, global scale. 
When thinking about shipping or the cruise line industry, it's the 
cumulative impacts over time to navigate around, for example offshore 
wind and oil and gas platforms, that can add up to hundreds of 
thousands of dollars in lost revenue over the course of a year simply 
in fuel costs. This in turn, has an effect on the economy and the price 
of goods. Understanding the complexities of our industry through ocean 
planning will help ocean managers make better, more informed decisions 
that better serve our industry and the American people. Additionally, 
as entities like the Coast Guard work to ensure navigation and safety 
for our mariners, having information on other ocean use activities such 
as commercial fishing traffic and recreational fishing and boating 
activity is helpful when addressing navigation and safety concerns as 
it relates to placing offshore structures that could impact these uses 
and potentially conflict with safe navigation.
    Shipping companies need certainty and the ability to get into and 
out of ports safely. This not only matters to the bottom line for 
shipping companies but has the potential to impact ports as well. A 
company will chose another port to conduct its business, if it is no 
longer cost effective to offload cargo or conduct other business 
operations. This Subcommittee represents some of the Nation's busiest 
ports. Poor planning and lack of consideration for navigational safety 
has the potential to impact those values significantly. The impact to 
the port will, in turn, impact the state and local economy with 
secondary impacts in lost wages to port workers and ship pilots who 
depend on business coming into and out of the port. Navigation and risk 
assessment is inherently linked to regional ocean planning. In fact, 
because of this planning process the Coast Guard now hosts a maritime 
commerce and navigational safety working group to better coordinate 
with maritime stakeholders on relevant planning issues.
    Regional ocean planning is not about new regulations but about 
helping Federal and state agencies do their job better. The Chamber and 
many of the industries we interact with feel strongly that regional 
approaches to ocean management with involvement of Federal and state 
agencies, and stakeholders are invaluable. We also find value in 
regional ocean data portals that house ocean data from agencies and 
industries in one central, publically accessible location. Using these 
data portals, permitting applicants and industry can leverage the broad 
spectrum of data sources to conduct risk analyses, identify potential 
conflicts, analyze trends, and plan for future uses, thereby ensuring 
better predictability for our businesses and avoiding disruption. 
Within existing ocean plans, agencies have committed to this early 
engagement when planning major actions offshore. Early stakeholder 
involvement leads to improved permitting efficiency and ensures 
agencies are prepared in advance to make more informed permitting and 
management decisions. This approach also ensures conflicts are avoided, 
which are often the result of a lack of government coordination and 
outreach. Lastly, industries suffer when agencies are not coordinated, 
and ocean industries are uniquely vulnerable with over 20 Federal 
agencies and entities sharing responsibility for management of Federal 
ocean waters. Regional ocean plans provide an opportunity for agencies 
to work more effectively with one another and that government 
efficiency has in turn helped the maritime sector.
    We have actively engaged with the Northeast and Mid-Atlantic 
Regional Planning Bodies to ensure harmonization of policies, data, and 
practices as it pertains to the shipping industry. We agree that a 
regional approach is the appropriate lens through which to plan, but 
made sure that consistency was addressed as it relates to our industry. 
We know that a better understanding from decision-makers on the scale 
at which our industry operates will lead to more informed decisions 
that support our shipping economy. The Chamber of Shipping of America's 
Director of Maritime Affairs serves on the Mid-Atlantic Ocean Council's 
Stakeholder Advisory Committee. We have attended meetings and made 
recommendations on data and information reflected in the ocean plans 
and data portals, and encourage all ocean users, including those 
testifying today, to do so.
    We have made recommendations about the support and inclusion of 
Automatic Identification System (AIS) data in the regional data 
portals. Availability of this data is critical to ensuring shipping and 
piloting routes are safe and protected. Maps on navigation and 
commercial traffic are valuable for those making decisions and working 
to address these regional, cumulative impacts. In fact, this data set 
is one of the most valuable and used data sets on both the Northeast 
and Mid-Atlantic Regional Ocean Data Portals, highlighting the need and 
value of data on the shipping industry in management and permitting. 
Ability for permitting agencies as well as state and Federal managers 
to access this AIS data to view ship traffic and overlay with other 
ocean uses like commercial fishing, recreational boating, and offshore 
infrastructure platforms all in one place means smarter more efficient 
decisions that lead to better outcomes for all industries. Government 
efficiency is a key component of these data portals and we fully 
support these efforts.
    Agency commitments within the Northeast and Mid-Atlantic Regional 
Ocean Plans to improve not only early coordination with industry but to 
improve coordination with one another are invaluable. This is 
especially true with respect to USCG, MARAD, and Army Corps of 
Engineers (USACE) as it relates to the maritime community. We fully 
believe that better coordination among the agencies managing our 
waterways results in better decisions for the shipping industry. USCG, 
MARAD and USACE are important voices for the shipping industry in 
Federal decision-making. The commitment to continue engagement with 
potentially affected ocean users before a proposed project occurs 
offshore is of the upmost importance to the Chamber and our members. As 
I discussed above, cumulative impacts of proposed projects can be 
incredibly devastating to the shipping industry.
    In closing, I hope this Subcommittee will allow industries to 
continue to work with Federal agencies and states to solve the 
conflicts and challenges we encounter every day. The Chamber supports 
the regional data portals, continuing to push for interagency 
coordination during permitting processes, and commitments from Federal 
agencies to involve industry earlier in decision-making. Our hope is 
that the good work related to the regional ocean plans and data portals 
continue and that the Subcommittee will not let politics get in the way 
of good governance. The ocean economy needs smart approaches to 
management and having Federal agencies coordinate with one another on 
information and data sharing is just common sense. Our members fully 
support these objectives. Without it we will be limited in our ability 
to adapt to the complex and rapidly changing maritime domain.

    Senator Sullivan. Well, thank you, Ms. Metcalf.
    Let me begin with a couple of questions, and I really want 
to open this up. I appreciate all of the witnesses' testimony 
today.
    You know, as I mentioned, Ms. Brady, you gave a very 
powerful testimony. I like the phrase ``You're the original 
stakeholders,'' and I think sometimes that's forgotten with 
regard to the men and women and their families who have been 
fishing our oceans for generations.
    You mentioned and you spelled out pretty well, with this 
policy and this setup, which by any measure is quite unwieldy, 
your voice is not heard. But you also talked about the resource 
misalignment--right?--with some of the groups that are 
participating. How difficult is it if you're a small fisherman, 
not only to have your voice heard, but to make it through this 
labyrinth of--well, I don't even know what you would call it--
regulations and committees and subcommittees to get to really 
Ms. Metcalf's point, which is trying to get policy ideas and 
finality out of it? Can you talk to those two points?
    Ms. Brady. Well, I can try. I think the big difference, 
however, between shipping and fishing is you have to find them 
first. And for shipping, it's going from point A to point B. 
For us, I actually came--the Mid-Atlantic Fishery Management 
Council is being held in Annapolis right now, in case anybody 
wants to come by and be numbed to death with the regulations.
    We have so many constraints upon us right now regarding our 
fisheries regulation: where we're allowed to catch, where we 
aren't, depending on gear type, where you go, what kind of 
gear, gear-restricted areas, rolling closures, other closures, 
whether you use a trawl, what the regulations are for that, if 
you use a longline or if you use a trap, regulations specific 
to each.
    The biggest concern that we have is being closed off for 
more areas that, under the guise of marine-protected areas, 
where there are no regulations, like through National Marine 
Fisheries Service with the Sanctuary Act where you can actually 
show real science. The science that's being created, the MDAT 
data, is for whales, it's very good, for birds, it's very good. 
There is no bad data, for those of you that are bat fans, 
offshore, in which the eastern red bat is one of the guys that 
actually travels offshore, but there's--the fish data is 
really, really bad.
    They're only using the fall Trawl Survey. So when all the 
other surveys, they start to spin and show the great migration 
patterns of where the fish go or where the birds or where the 
whales go, it's a blank screen, and then in the fall, in 
September, they show a blip for 2 months, and then it's gone. 
They haven't used the appropriate data. The data that they use 
isn't indicative of where these species of fish are.
    And we just can't take the chance of being closed out of 
more areas by another splinter group that decides to put new 
restrictions upon us by possibly extending territorial waters 
through interagency consistency requirements of the Coastal 
Zone Management Act, and then deciding this is the area that we 
want to use or to close.
    Senator Sullivan. Yep.
    Let me ask a similar question for you, Mr. Keppen, in terms 
of your voice. And I think that your testimony is very 
interesting because, to be honest, you represent a group that 
you don't always think about with regard to fishing and coastal 
communities, and yet your testimony was powerful in that you 
could or are being impacted. How do you get the voice of the 
rancher or farmer in the western part of the state into this 
process?
    Mr. Keppen. Well, it looks very daunting. And, frankly, I 
really don't know a lot about the process or where they're at 
right now. I kind of found out from other folks in the 
regulated community as to what was going on, you know, a couple 
years ago.
    But I know, you know, we've dealt with similar types of 
processes, which I identify in my written testimony. I live in 
the high desert of Oregon, several hundred miles from the 
ocean. We have five large dams in the Klamath River between our 
irrigation project and the mouth of the river. We've got listed 
fish. Coho salmon, they're threatened under the Endangered 
Species Act. National Marine Fisheries Service has jurisdiction 
over them. When those fish were first listed, irrigation 
diversions weren't even mentioned as a stressor to the fish, 
but since we're a Federal project, it's become the sole focus, 
a means of protecting the fish from being exterminated, we're 
sending more flows downstream for those fish.
    So here we are hundreds of miles away, we've got anadromous 
fish in the ocean and in another state that are impacting our 
farmers to the degree in 2001 so much water was sent downstream 
for the fish and reserved in our lake for suckers and other 
listed fish, the farmers went without water for the first time 
in 95 years. It did a $300 million impact to our economy.
    Our farmers tried to influence that process that was going 
on downstream that led to the flow recommendations. It was very 
difficult, not only because of the distance, but the limited 
resources they had to engage in that process.
    Senator Sullivan. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Again thank you to each of our witnesses for your testimony 
today. I want to drill down a little and get a little sense of 
some specific kind of issues.
    Ms. Metcalf, in your written testimony, you talked about 
the importance of marine planning to the U.S. Coast Guard. And 
as you know, this Committee also has jurisdiction over the 
oversight of the U.S. Coast Guard, so I want to expand a little 
bit on that, if you could for us, and the Coast Guard's ability 
to carry out maritime security and stewardship missions. The 
National Ocean Policy allows the Coast Guard to address a 
number of these issues, and I just wanted to know kind of your 
sense of how maritime planning has improved national security 
and the ability for the Coast Guard to do its job, if it has.
    Ms. Metcalf. I will answer on the Chamber's behalf, and 
hopefully it will be what the Coast Guard would respond as 
well.
    Senator Peters. Well, your perspective would be helpful.
    Ms. Metcalf. Marine spatial planning, as you know, is 
locating and siting activities on the oceans and the coastal 
waters, and to be able to know what's there and when it's there 
and in what densities is very important to us, particularly in 
shipping, for the purposes of safe navigation. It's also 
important to the Coast Guard to know where ships are and who 
those ships are.
    So not only does marine spatial planning assist in the 
marine stewardship piece of the Coast Guard, the safe and 
environmentally responsible operations of vessels, but it also 
provides them a maritime security perspective and additional 
data that allows them to evaluate any potential threats that 
may be coming in from the water's side.
    Senator Peters. Great. Thank you.
    The many uses of our oceans' coasts and Great Lakes also 
require infrastructure, something that I've been working on a 
great deal in the Great Lakes area in particular, and as a 
shipper, having access to ports and other types of 
infrastructures important to move goods back and forth. I'll 
just get your sense of, how can strategic maritime planning 
help us really meet these infrastructure needs? And what are 
some of those pressing needs that you see as a shipper?
    Ms. Metcalf. Well, as a shipping--someone representing the 
shipping industry, obviously, a safe path in which to travel to 
and from a port area in a very predictable way and in a safe 
way. The efficiencies of port operations can be enhanced by 
making sure all the potential conflicting users know where each 
other are and don't get in each other's way. And I think the 
extension from--increasing the efficiency of the ports also 
increases the efficiency of the state, its economies, and the 
jobs that are supplied by the port infrastructure. So it's all 
connected.
    Senator Peters. Very good.
    Ms. Brady, in a March 2017 political article, you were 
quoted in reference to offshore energy development in the 
Northeast by saying, and I think this is your quote, hopefully 
it's accurate, and you can tell me if it is or not.
    Ms. Brady. I will. I will. Don't worry.
    Senator Peters. It says, ``If they keep selling off these 
portions of the ocean indiscriminately without determining 
first where they shouldn't be going, it will be too late. 
You'll be bankrupting these coastal communities.'' Is that an 
accurate quote?
    Ms. Brady. That is an accurate quote, yes.
    Senator Peters. And so I read that with great interest, and 
I agree with you, that we have to be very careful before we 
sell off these properties, and we need to make sure that we are 
conducting proper ocean planning.
    So my sense is, how do you believe that we can accomplish 
that sort of planning? And is there a role for a regional 
planning body in trying to do what's right when it comes to 
protecting these vital areas from oil and gas exploration?
    Ms. Brady. I don't believe, unfortunately, that the 
regional planning body, because if you look at the sustainable 
uses that they choose for ocean uses, they've got commercial 
and recreational fishing, they have aquaculture, and the only 
energy choice that they gave was offshore energy as being the 
option.
    I think that BOEM, in and of itself, if they had the 
ability to include the National Marine Fisheries Service and 
the fish councils as having first dibs to be able to say, 
``These are traditional historic fishing grounds, you cannot go 
there,'' and then from there, decide where are options, then 
that could be. They could easily go off the shelf, but the 
companies that create those might not make as much profits as 
they wish to, and that's inherently the problem.
    But, I mean, as far as in--giving the fish councils, giving 
NOAA, the ability--the only way that a project, if it's in a 
certain area, could have a consult by NOAA is if they have an 
ESA--ESA species, Endangered Species Act species, and that's 
the only option for them to say, ``No, don't go there.'' Other 
than that, it's all wide open. That's the problem.
    Senator Peters. Thank you.
    Senator Sullivan. Let me, I want to go back to just a 
couple other points on the broader structure of this. The 
Executive order for the National Ocean Policy says it's 
voluntary marine planning, that's a quote, but it also made 
clear that even in regions of the U.S. where the states decide 
not to participate, which includes Alaska and some of the Great 
Lakes states, Federal agencies still need to address things 
such as information ocean management issues associated with 
maritime planning, as described in the Executive order, and I'm 
reading a quote.
    So, Mr. Guith, let me just start with you. Does that sound 
voluntary?
    Mr. Guith. As long as enforcement is voluntary as well.
    [Laughter.]
    Mr. Guith. No, it clearly isn't. And I think you hit 
exactly on the primary reason why this is an issue. I mean, I 
agree with Ms. Metcalf, that there's a considerable amount of 
overlap as far as what we all want by way of ensuring that you 
can essentially have your cake and eat it, too. I mean, we 
want--there are multiple uses of the ocean, and we all want to 
do it in sustainable ways that, you know, protects the 
environment.
    But the primary issue here is the lack of statutory 
authority.
    Senator Sullivan. Yes.
    Mr. Guith. Even if it's the greatest thing in the world, 
you can't do it without Congress designating that. And if we 
ever get to a point of an actual final regulatory action, I 
think you would see several lawsuits filed successfully.
    Senator Sullivan. So your point on that, is it also 
illustrative of that issue of lack of legal authority that 
there has been numerous attempts not only to pass this 
legislatively, which would be the proper way to do that, which 
have not happened, and, again, as I mentioned, under Congress's 
control by both parties, but also Congress's attempts to defund 
the program, which is another way of saying that the Congress 
believes that if this kind of process is going to go forward, 
it should have a statutory basis? Does that further kind of 
bolster your claim that this has some shaky legal grounds?
    Mr. Guith. Precisely.
    Senator Sullivan. Great. Thank you.
    Let me ask, Ms. Metcalf, we were talking about elements of 
this that I appreciated you going off script, even if the folks 
who you came with might not have, in your testimony. But I 
think you made a good point, right? There are some things in 
here that are important where there is--I think we would have 
bipartisan consensus certainly on this Committee.
    Can you point out the few things that you think are 
positive, but also things that you have challenges with? I note 
that associated groups, maritime industry groups, like the AFL-
CIO's Maritime Trade Department, the American Waterways 
Operators, the Transportation Institute, have all weighed in 
with either their opposition to this National Ocean Policy 
Executive order or raising some significant concerns.
    So can you give me your sense again on kind of some of the 
positive aspects, but also some of the negative aspects that 
you and some of your affiliated groups in the maritime industry 
have voiced concerns about?
    Ms. Metcalf. Yes, Mr. Chairman. I think the response to 
your last question is one of those. I happen to be an attorney, 
but I don't engage in the practice of law, as they say in the 
ethics rules. I have not done a legal analysis of this. I have 
looked at this from a practical operating standpoint from 
shipping, and so I am not in the position to suggest that there 
are lawsuits or other legal action that would be warranted, 
although I certainly defer to my colleague that so stated.
    We look at the National Ocean Policy, not as a new bunch of 
requirements, but as a formative tool to help the agencies do 
the jobs you have already given them in existing statutes. They 
all have responsibilities, but sometimes the sandbox either 
gets too crowded or people are too cranky, and the coordination 
does not happen that should.
    So the positive part of this is the urge to have bodies not 
hidden behind closed doors, and that have been some of the 
concerns we have voiced in our--in the written testimony, as a 
matter of fact, is, ``What happens? What's the process?'' 
rather than to in the full sunlight say this is a process to 
make agencies, with their responsibilities from Congress 
already established, do it better, do it more efficiently.
    So the negative side is the uncertainty associated with 
some of the provisions in there. I was astonished, quite 
frankly, because when my colleague from the Farm Alliance 
Bureau, just I'm going, ``What does this have to do with the 
National Ocean Policy?''
    Senator Sullivan. Yes.
    Ms. Metcalf. And then I see this language in here that some 
I guess smart text drafter threw in that potentially brings in 
the inland waterways and, heavens to bid, all the way up in the 
mountains. And it's the National Ocean Policy, folks, it's not 
the national let's do all the environmental litigation--or not 
litigation, but regulation we can by taking advantage of a 
process that was not intended to do that. So the negative----
    Senator Sullivan. Yes. That's a very good point, and that's 
why I think having Mr. Keppen here is powerful because, like I 
mentioned earlier, it's not what you normally would anticipate 
on such a hearing, but I think it just gives you the sense of 
the expansiveness of this.
    Let me end with one final question, and I'll just pose it 
to each of the panelists. As I mentioned, we're trying to do 
this in terms of oversight. Some of you have recommended, hey, 
we need to start over again particularly because of legal 
aspects that look dubious or because it's just almost an end-
around to existing statutory authority, such as the Magnuson-
Stevens Act.
    And I know, Ms. Brady, you're here for the council process 
in Annapolis, but that is a well-established process set up by 
statute that I think, although, not without some controversy, 
it has done a good job over the decades, bringing public input 
in to help us manage our fisheries in the most sustainable way. 
Everyone wants to do that. Everyone on this Committee wants to 
do that.
    I just ask for each of you to close with your thoughts on 
what you see as kind of the most egregious aspect of this, but 
then also again trying to get a balance here if there are any 
positive elements that as we're looking at new legislation, for 
example, the reauthorization of Magnuson-Stevens, we've had 
several hearings on that already, what would be something that 
could be possibly viewed as positive from here that we could 
put in statutory form that could maybe help advance what we all 
want, which is clean oceans, sustainable fisheries, the ability 
to use all the resources in the oceans in an environmentally 
sensitive way, including energy, which is very important to my 
state.
    So we're going to end just with all of your thoughts on 
those two points, that would be helpful.
    We'll start with you, Ms. Brady.
    Ms. Brady. I was hoping I'd be last this time.
    [Laughter.]
    Ms. Brady. Let's see, I just--I will slightly disagree. I 
would like the baby to be tossed out with that bathwater 
completely, send the baby and the bath right down the stream.
    The most egregious is the fear of having additional 
closures.
    Senator Sullivan. Yes.
    Ms. Brady. I mean, we are being----
    Senator Sullivan. With a process that's very hard to 
understand.
    Ms. Brady.--with a process that has ulterior motives. And 
if you can't put it in through law and have it passed, go 
through the council process, go through the scientific process, 
of proving that something is of such a value that it needs 
extra protection, that is the council process.
    Senator Sullivan. Yes.
    Ms. Brady. And create an alternative pathway to getting it 
done. That's the problem.
    Senator Sullivan. Great. That's powerful.
    Ms. Brady. As far as what we would keep from it, can I--can 
you get back to me?
    Senator Sullivan. You can submit anything about that for 
the record. And if you don't have anything positive, that's all 
I'm going to ask for.
    Ms. Brady. I think everyone should do the jobs that already 
exist. You know, the fact that they have to get together in a 
room and hang out and chat and have great lunch together and, 
you know, have this idea, that should already be going on, and 
it isn't.
    Senator Sullivan. Yes.
    Ms. Brady. And--but to create a new policy that has multi-
sequelae that none of it's good for us in the fishing industry, 
this is not the way. Send it downstream.
    Thank you.
    Senator Sullivan. OK. Mr. Guith.
    Mr. Guith. As I stated in my testimony, I mean, first and 
foremost, the breadth. I mean, I think we're all in agreement, 
we just--we just established that, that, you know, reaching to 
the Continental Divide or inland Alaska is not where ocean 
policy should start. Uncertainty is very real.
    Senator Sullivan. Yes.
    Mr. Guith. I mean, the inability to make plans, especially 
when you're talking about multi-million or billion dollar 
investments, knowing how that is to be navigated and what the 
repercussions are going to be. And then ultimately the risk. I 
mean, I appreciate that you brought up offshore energy 
development. I mean, obviously, it's a huge component of the 
Alaskan economy and, more importantly, of the American economy.
    Senator Sullivan. Yes, I agree.
    Mr. Guith. And as we wait for this administration to 
propose a new offshore development plan, I mean, we've seen how 
the Outer Continental Shelf Lands Act works. I mean, it 
requires consultation with stakeholders and with states. I 
mean, those processes already exist, and all of a sudden, you 
overlay that on top of it, what does that mean for these 
companies that we're looking to, to make multi-billion dollar 
investments over the course of 20 years to secure America's 
energy future? Who knows? But if you have to face that on top 
of everything else, why would you go here as opposed to South 
America or the North Sea or what have you?
    Senator Sullivan. Right. Thank you. Excellent.
    Mr. Keppen.
    Mr. Keppen. I think it's just, again, it's the uncertainty 
and the breadth of it all. I think a lot of our folks really 
took some offense to the makeup of these regional bodies. 
They're all Federal agencies. There are some tribal interests 
in there, but there are no opportunities for the producers to 
have any say, you know, and why is that?
    I guess there's not a lot about the overall policy that I'm 
really keen on, but I just think maybe this is an opportunity. 
I think, like you, it needs to be vacated, but use this 
opportunity to draw attention to the issue and really try to 
find ways to underscore what existing programs are doing and 
try to make those more transparent and effective.
    Senator Sullivan. Great.
    Ms. Metcalf.
    Ms. Metcalf. Thank you, Chairman. I'm not prepared to 
suggest vacation of this. If that's the process that allows us 
a clean slate to take the good things out of the current policy 
and start anew----
    Senator Sullivan. Yes.
    Ms. Metcalf.--then fine. And I will leave it to the 
professionals here on Capitol Hill to decide how that's best 
done, but we cannot throw the good aspects of this out. We've 
come too far with the coordination and the collaboration.
    I do take notice, though, that the different ocean users 
have very different perspectives on this, particularly, you 
know, the offshore, the fishing.
    And heaven forbid how you got involved here. I'm sorry.
    [Laughter.]
    Ms. Metcalf. But--so some sort of a Federal level ocean 
council, committee, that oversees this process. It's no new 
statutory requirements, it's an attempt to coordinate 
activities. And we do see ambiguity in the current plan. 
Clarify that, no, we're not going to go to the Rocky Mountains 
with the National Ocean Plan. Get rid of some of the 
overreaching that seems to have been slid into the text of the 
pan--plan, and make sure that it is never going to be a tool 
for mischief for those that can't get what they want through 
the transparency of the legislative process.
    Senator Sullivan. Excellent. Thank you.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thanks, Mr. Chairman. And 
thanks for holding this excellent hearing.
    I want to focus on the National Ocean Policy and its impact 
on shipping, particularly in the medium-size ports, like 
Bridgeport, New Haven, and New London.
    Does the National Ocean Policy do enough, Ms. Metcalf, to 
support shipping in these ports, which are really oceangoing, 
in terms of the kind of trade and jobs that they support?
    Ms. Metcalf. To go back almost 40 years ago, I will say 
that my first assignment as a third mate on a tanker, I was 
going in and out of New Haven, so I appreciate the efficiency 
of that port back then, and I'm sure it's only gotten better.
    I think we can always get better. I can tell you that the 
ports of New Haven, and some of the smaller northeastern ports, 
but very important ports, such as the ones in your state, can 
always be made better because remembering that Long Island 
Sound, much like the Great Lakes--I'm sorry the Senator from 
Michigan had to leave--but the more enclosed your space is, the 
more important it is to identify ocean user conflicts. And so 
we can more logically wade through the problems.
    And I would hope--the example that Ms. Brady provided gave 
me some pause because this should never be about choosing one 
user over another; it should be about coordinating use among 
all the users. And so the answer--that was a long answer to the 
question. Yes, I think the National Ocean Policy and the 
principles for coordination and collaboration can help any 
port, but especially those that are in more constrained 
waterways.
    Senator Blumenthal. And dredging is probably important for 
those ports.
    Ms. Metcalf. Dredging is really important. Yes, sir.
    Senator Blumenthal. Let me ask you, Ms. Brady, in terms of, 
once again, going to the fishing industry in Connecticut, I 
know you're a strong supporter, the mishmash of supposed 
oversight----
    Ms. Brady. I can't even see it from here.
    [Laughter.]
    Senator Blumenthal. And you don't need your eyeglasses 
because seeing it won't make it any more understandable.
    Laughter.]
    Senator Sullivan. It makes it worse.
    [Laughter.]
    Ms. Brady. Great.
    Senator Blumenthal. Right. I would probably make it worse, 
more frustrating----
    Ms. Brady. Right.
    Senator Blumenthal.--if you see it, even more frustrating 
if you experience it. But one of the imperatives I think about 
ocean policy is to translate policy into action and make it 
fair and effective, which right now it is not for our fishing 
industry. If you had to identify two or three of the most 
important changes you would like to see either in the structure 
or in the policies, what would they be?
    Ms. Brady. Other than the baby in the bath downstream, the 
ability of NOAA to say no. Our traditional historic fishing 
grounds, that's where we go. And we adhere to everything. I 
mean, if you're been around since Magnuson started, we've got--
I should have brought like a fishery management plan or an 
amendment just to be like ``thunk.''
    We adhere to the highest regulations in the world. Our 
stocks are sustainable. What is it, 91 percent overfishing 
isn't occurring, 84--no, 91 percent aren't overfished, and 84 
percent overfishing isn't occurring? Either/or, we have 250 
species of stocks in the U.S. that we sell commercially, you 
know. But we have adhered to all regulations that exist, and 
yet we're at 92 percent imports because no one else holds any 
of those values when they ship it into this country.
    A really quick fact, I looked this up, 1996, Magnuson-
Stevens Sustainable Fisheries Act with a 10-year timeline went 
into place, as I'm sure both of you guys are aware of. We were 
at 52 percent imports in the U.S. Twenty years later, we're at 
92 percent, and that's because the consumers did not stop 
eating fish, they just got them where--because it's price 
point, everyone wants--they don't want to have to spend a 
fortune. So we've had to be forced to a higher standard than 
everyone else, and we've seen no--I'm going to use the pun, no 
net benefit from that since then.
    How to make it better? I thought about one thing on the 
Outer Continental Shelf Act. There is no fund for offshore wind 
at all. They have up to I think it's a million dollars if you 
trash a net when you're on the Gulf on a thing or something 
like that, but there's no--because offshore wind energy wasn't 
even in existence. So there is no fund that needs to deal with 
short-term, medium-, and long-term mitigation in case things 
happen. There is--I have--I could contact one of your staffers, 
but there are a lot of things that would wish that they would 
go off the shelf to do it because you don't--you don't set your 
fields on fire and you don't destroy your traditional fishing 
grounds in order to produce energy, you can go--I lived 
overseas for 2 years, no energy, you know, and that was fine, 
but food, you still need food. And it's national food security 
as far I'm concerned when it comes to fish.
    Senator Blumenthal. Is the 92 percent figure, which I find 
staggering----
    Ms. Brady. Yes.
    Senator Blumenthal.--true of both coasts? In other words, 
is that national----
    Ms. Brady. It's 92 percent nationally. I believe some of it 
is because--and I'm sorry to take up time with fish stuff, but, 
hey, you know, you've got a couple people--it's because it's 
cheaper to catch the fish here, ship them overseas to have them 
processed in some places, and then return them back to this 
country because we can't get processing in this country because 
of the amount of regulations that's involved. There are some 
places that do it, but we lost a lot of infrastructure since 
the Magnuson-Stevens Act went into play and since a lot of the 
regulations started taking place.
    Senator Blumenthal.--and would you attribute the increase 
from about 50 percent to 92 percent to the regulation of the 
processing or the regulation of the fishing?
    Ms. Brady. No, no, no. Regulation in general. I mean, you 
had like the--you know, it used to be work as hard as you can 
and just, you know, that it was forever. Obviously, we have 
regulation, we understand that. We want to have fish for the 
next couple of centuries. But the problem is, is that the death 
by 1,000 cuts and not looking at the cumulative effect of 
multiple fishery management plans upon fishermen that catch 
them, and having cuts upon cuts, and we're--at MPA, where if 
it's not coming--you know, we have gear-restricted areas all 
the time, but that's based on science.
    What they're doing now--and I know the scientists that are 
working, you know, but they're bringing back deliverables with 
the National Ocean Policy, and that's not exactly science, and 
that's a problem.
    Senator Blumenthal. Thank you.
    Thanks.
    Senator Sullivan. Thank you, Senator Blumenthal.
    If there is no objection, I would like to submit for the 
record this slide, illustrating the bureaucracy called for in 
the National Ocean Policy, a letter in opposition of the 
National Ocean Policy written by various stakeholders, and a 
letter on the National Ocean Policy written by the Joint Ocean 
Commission Initiative, which I believe is supportive.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                                 September 23, 2016
Hon. Harold Rogers,
Chairman,
Committee on Appropriations,
U.S. House of Representatives,
Washington, DC.

Hon. Nita Lowey,
Ranking Member,
Committee on Appropriations,
U.S. House of Representatives,
Washington, DC.

Hon. Thad Cochran,
Chairman,
Committee on Appropriations,
U.S. Senate,
Washington, DC.

Hon. Barbara Mikulski,
Vice Chairwoman,
Committee on Appropriations,
U.S. Senate,
Washington, DC.

Dear Chairmen Rogers and Cochran and Ranking Member Lowey and Vice 
Chairwoman Mikulski:

    In connection with congressional efforts to fund the Federal 
Government for Fiscal Year 2017, the undersigned groups request your 
support for including language that ensures commercial and recreational 
interests spanning nearly every sector of the U.S. economy are not 
saddled with additional uncertainty or new regulatory hurdles as a 
result of implementation of two particular components of the July 2010 
Executive Order establishing the National Ocean Policy.
    Among other things, the Executive Order directs a multitude of 
Federal entities to participate in ``Coastal and Marine Spatial 
Planning'' (CMSP) in all nine U.S. coastal regions. The Interior 
Department has likened CMSP to a ``national zoning plan'' that ``will 
serve as an overlay'' in Federal decisions, NOAA recently stated that 
government-only Regional Planning Bodies created under the policy ``may 
consider [marine protected areas],'' and draft Northeast and Mid-
Atlantic marine plans include proposed actions to identify ``important 
ecological areas'' and ``ecologically rich areas.'' Concerns are 
further heightened given that the geographic coverage of CMSP includes 
inland bays and estuaries and upland areas as the new Regional Planning 
Bodies deem appropriate, and since Federal entities will ``address 
priority . . . ocean management issues associated with marine planning 
as described in the Executive Order'' even if all states in a region 
decide not to participate.
    In addition to CMSP, the National Ocean Policy requires the Federal 
Government to implement ``Ecosystem-Based Management'' (EBM), which is 
described as a ``fundamental shift'' in how the U.S. manages ocean, 
coastal, and Great Lakes resources, with Federal entities directed to 
``[i]ncorporate EBM into Federal agency environmental planning and 
review processes'' by 2016.
    Language adopted by the Executive Order states that effective 
National Ocean Policy implementation would ``require clear and easily 
understood requirements and regulations, where appropriate, that 
include enforcement as a critical component,'' and acknowledges that 
the policy ``may create a level of uncertainty and anxiety among those 
who rely on these resources and may generate questions about how they 
align with existing processes, authorities, and budget challenges.'' In 
order to ensure that further implementation of some of the most 
concerning and potentially impactful aspects of an initiative that has 
not been authorized by Congress does not create additional regulatory 
uncertainty, result in new regulatory hurdles, or siphon away scarce 
Federal dollars from critical and authorized activities, the 
undersigned groups respectfully request that any FY 2017 funding bill 
includes language stating that ``None of the funds made available by 
this Act may be used to further implementation of the coastal and 
marine spatial planning and ecosystem-based management components of 
the National Ocean Policy developed under Executive Order 13547.''
    Including this language will provide Congress with an important 
opportunity to more closely examine the National Ocean Policy and the 
full range of its potential impacts before it is fully implemented. It 
would also follow 35 House and Senate floor votes since 2012 in support 
of actions to prohibit, restrict, or shed light on National Ocean 
Policy implementation, including several bills that were signed into 
law. In closing, we appreciate your attention to this issue and 
respectfully request inclusion of the proposed language in any 
legislative vehicle(s) for FY 2017 funding.
            Sincerely,


Agricultural Retailers Association   Long Island Commercial Fishing
Alabama Charter Fishing Association   Association
Alaska Bering Sea Crabbers           Louisiana Trade Consultants
Alaska Groundfish Data Bank          Mexico Beach Charters
Alaska Miners Association            Mexicobeach.bz Inc. (Mexico Beach,
Alaska Oil and Gas Association        FL)
Alaska State Chamber of Commerce     Montauk Inlet Seafood
Alaska Support Industry Alliance     National Agricultural Aviation
Alaska Whitefish Trawlers             Association
 Association                         National Association of Charterboat
Alliance of Communities for           Operators
 Sustainable Fisheries               National Cattlemen's Beef
American Energy Alliance              Association
American Exploration and Mining      National Fisheries Institute
 Association                         National Ocean Industries
American Farm Bureau Federation      Association
American Fishermen's Research        National Ocean Policy Coalition
 Foundation                          National Onion Association
American Loggers Council             1New Bedford Seafood Consulting
American Petroleum Institute         North Carolina Watermen United
At-sea Processors Association        North Myrtle Beach Fishing Charters
B Cubed Associates LLC (Powder       Offshore Mariners Wives'
 Springs, GA)                         Association
California Wetfish Producers         Organized Fishermen of Florida
 Association                         Pacific Seafood Processors
Charisma Charters                     Association
Charter Boat Miss Mary (Mexico       Panama City Boatmen Association
 Beach, FL)                          Public Lands Council
Consumer Energy Alliance             Recreational Fishing Alliance
CropLife America                     Recreational Fishing Alliance-
Directed Sustainable Fisheries,       Forgotten Coast Chapter
 Inc.                                Recreational Fishing Alliance--
Family Farm Alliance                  Oregon State Chapter
Florida Keys Commercial Fishermen's  Resource Development Council for
 Association                          Alaska
Forest Landowners Association        Seafreeze Ltd.
Freezer Longline Coalition           Small Business & Entrepreneurship
Garden State Seafood Association      Council
Grand Strand Fishing Alliance        Society for Mining, Metallurgy and
Great Lakes Boating Federation        Exploration
Gulf Economic Survival Team          Southeast Alaska Fishermen's
Half Hitch Tackle (Destin, Panama     Alliance
 City Beach, Port St Joe, FL)        Southeastern Fisheries Association
Hispanic Leadership Fund             Southern Offshore Fishing
Independent Petroleum Association     Association
 of America                          The Fertilizer Institute
Institute for 21st Century Energy    Transportation Institute
International Association of         United Catcher Boats
 Drilling Contractors                U.S. Chamber of Commerce
International Association of         U.S. Oil and Gas Association
 Geophysical Contractors             Virginia Charter Boat Association
LA 1 Coalition                       Wahblee LLC (Mexico Beach, FL)
                                     West Coast Seafood Processors
                                      Association
                                     Western Energy Alliance
                                     Western Fishboat Owners Association
 

                                 ______
                                 
                          Joint Ocean Commission Initiative
                                  Washington, DC, December 12, 2017
U.S. Senate,
Committee on Commerce, Science, and Transportation,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard.

    Dear Chairman Thune and Ranking Member Nelson, Subcommittee 
Chairman Sullivan and Subcommittee Ranking Member Peters,

    Thank you for scheduling a hearing on the National Ocean Policy, a 
topic of the utmost importance to a maritime nation that looks to its 
oceans for prosperity, transportation, protein, energy, protection, and 
inspiration.
    The Joint Ocean Commission Initiative (Joint Initiative) was 
established in 2005 to continue the legacy of the U.S. Commission on 
Ocean Policy (USCOP) and the Pew Oceans Commission. The Joint 
Initiative's work embodies the vision that comprehensive, coordinated 
ocean policy is paramount to successful management of our oceans and 
coasts, both now and for future generations. As Co-Chairs of the Joint 
Initiative, we are writing to express our support for a broadly 
supported, bipartisan National Ocean Policy that coordinates and 
integrates ocean governance in the United States.
    The USCOP's landmark report, An Ocean Blueprint for the 21st 
Century, was groundbreaking in its vision for comprehensive ocean 
governance in the United States. Its guiding principles established a 
bipartisan path forward to support ocean and coastal economies, 
communities, and ecosystems. These principles, including stewardship, 
multiple use management, and science-based decision making, should 
guide Congress and the Administration as they consider updates or 
revisions to the current executive order establishing a National Ocean 
Policy. As part of any review, existing mechanisms that effectively 
advance these principles should be preserved. In addition, Congress 
could work to develop a national ocean policy that supplements the 
current executive order, garners support from all relevant sectors, and 
maximizes use of our oceans for the commonwealth.
    In the meantime, many elements of the current National Ocean Policy 
are delivering results and are strongly supported by industry, states, 
regions, and other stakeholders. Through its implementation, 
stakeholders have gained broader access to ocean policy decision 
making, thereby fulfilling the USCOP principles of stewardship, 
participatory governance, and accountability. By supporting the 
creation of new data products that increase data and information 
availability to all stakeholders, the National Ocean Policy is ensuring 
the use of best-available science and information in public and private 
sector decision1making. In supporting action on illegal, unreported, 
and unregulated fishing, the National Ocean Policy promotes 
international responsibility. By integrating ocean governance, the 
National Ocean Policy helps to insure sustainability and stewardship of 
our oceans and coasts.
    Perhaps most importantly, the National Ocean Policy improves 
coordination among government agencies and Federal oceans programs. 
This coordination increases the efficiency of Federal efforts to assist 
states and regions in achieving critical resource management goals for 
our oceans and coasts. It also increases efficiency in regulatory 
decision making. This dual efficiency not only exemplifies the vision 
of the USCOP, it also embodies the bipartisan need to ensure that 
Federal spending goes as far as possible.
    The current National Ocean Policy is far from perfect, and should 
be improved on. This underscores the need for a visionary, durable 
policy that can withstand changing administrations, and brings 
coherence and a sound strategy to ocean management. The United States 
lacks a strategy for sustainable development of its offshore areas. 
Conflicts abound among users, among agencies, and between different 
levels of government over the use of ocean resources and space. In some 
cases, such as energy development, U.S. policy oscillates between 
unmitigated development thrusts and the adoption of wholly 
conservationist approaches. This oscillation precludes a balanced, long 
term sustainable outcome and creates a policy vacuum that remains 
untenable. The prosperity of our Nation's bustling ocean economy and 
the longevity of our marine resources depends on sound, integrated 
ocean governance.
    We urge you to demonstrate leadership by ensuring that the 
principles of stewardship, multiple-use management, best-available 
science, adaptive management, coordination, participatory governance, 
and government efficiency are enshrined in U.S. ocean policy, as the 
USCOP intended. Regardless of policy mechanism, these principles must 
be maintained for coastal communities and economies to thrive. The 
current executive order establishing a National Ocean Policy is 
accomplishing many of these goals and, in our view, should be improved 
and not abandoned. The Joint Ocean Commission Initiative remains 
dedicated to helping you and other U.S. leaders address ocean policy 
priorities through integrated ocean governance.
            Sincerely,
                                    Christine Todd Whitman,
                                                          Co-Chair,
                                     Joint Ocean Commission Initiative.
                                          Norman Y. Mineta,
                                                          Co-Chair,
                                     Joint Ocean Commission Initiative.

    Senator Sullivan. I want to thank the witnesses again for 
their outstanding testimony. This hearing is now adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    The success of Florida's economy is intimately connected to our 
Nation's oceans.
    Florida is the fishing capital of the world, home to some of the 
country's largest ports, and every year our beaches attract millions of 
tourists. It goes without saying that when our oceans are healthy and 
well-managed Floridians prosper.
    But keeping our oceans healthy and well-managed is not an easy 
task. First and foremost, the Earth's climate is changing and it is 
disproportionately affecting our oceans. In the U.S., a variety of 
local, state, and Federal stakeholders are trying to navigate these 
changes while simultaneously complying with a mix of laws and 
regulations. Further, our oceans are affected by actions of foreign 
states, which is why we must continue to lead the international 
community on sensible ocean policy.
    On July 19, 2010, President Obama signed Executive Order 13547, 
which established the National Ocean Policy. The National Ocean Policy 
is the culmination of a bipartisan, decades-long process to determine 
how to best manage our Nation's oceans.
    It directs the Federal Government to coordinate with local and 
regional stakeholders on policies that will lead to healthier and 
better-managed oceans.
    These policies address such issues as IUU fishing, harmful algal 
blooms, ocean acidification, coastal resilience, coastal mapping, and 
coordinated ocean management; all of which have a direct impact on 
Florida.
    Americans that rely on our oceans need responsive executive 
agencies that are willing to put energy into helping efficiently solve 
problems.
    The National Ocean Policy charges the Executive Branch with doing 
just that. And when our Federal Government is directed to listen to 
local communities on ocean policy, all Floridians, and all Americans 
benefit.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Bonnie Brady
    Question 1. Senator Peters, thank you for giving me the opportunity 
to speak further re: alternative data streams that I believe should be 
included within the Regional Planning Bodies data on commercial 
fishing.

  <bullet> The present MDAT data for fisheries uses only fishery-
        independent trawl data from four research trawl surveys (as per 
        its technical report on methods and development http://
        seamap.env.duke.edu/models/mdat/MDAT-Technical-Report-v1_1.pdf 
        pg 21,)

    ``While the marine mammal and avian MDAT partners developed models 
to show abundance and distribution, the Work Group guiding the process 
for fish products decided on products that represent the original data. 
There are four sources for fisheries trawl data: the NOAA Northeast 
Fishery Science Center (NEFSC), North East Areas Monitoring and 
Assessment Program (NEAMAP), Massachusetts Division of Marine Fisheries 
(MDMF), and Maine & New Hampshire state trawls (ME/NH). There is some 
spatial overlap among the surveys, and the NEFSC survey area is much 
larger than any of the others (Figure 5). Each set of data sources have 
used standardized survey designs and data collection methodologies but 
some have used different vessels and gears over time. Results have been 
normalized to account for these vessel and gear differences within each 
data source, however no method has yet been applied to normalize data 
across the different sources. For that reason, they are presented 
separately.''

  <bullet> Only the fall NOAA research survey trawl survey is used for 
        MDAT, and in recent years the RV Bigelow has missed portions 
        of, or complete legs of, the fall surveys due to vessel 
        breakdowns.

  <bullet> MDAT does not utilize additional state trawl surveys other 
        than the Massachusetts and the joint NH/ME trawl survey. As is 
        noted in the MDAT tech report, when describing the four trawl 
        surveys used, two regional and two state-specific, each has its 
        own sized boat, net, speed, and gear configuration. To the best 
        of my knowledge, there are no joint protocols and no 
        calibration between the surveys has been attempted.

  <bullet> Two out of four MDAT-used surveys take place in state waters 
        north of Rhode Island. Mid-Atlantic fish abundance and/or 
        distribution trends may not be effectively captured without 
        including other state trawl surveys south of Massachusetts.

  <bullet> There are also clear limits to the data resolution of the 
        NOAA trawl survey. Used for stock assessment to show abundance 
        and distribution trends via the RV Bigelow, its survey data 
        resolution is coarse, detecting variations in abundance only 
        within approximately 40 kms (24 miles.) It cannot fine tune 
        data at a smaller spatial scale.

  <bullet> MDAT does not use other fisheries-independent data sources, 
        like longline or plankton surveys, to capture fisheries data 
        for areas where bottom trawls would not be effective.

  <bullet> No fisheries-dependent data is used within MDAT, including 
        observer data, or trusted electronic monitoring programs such 
        as the NEFSC's Cooperative Research Study Fleet, comprised of 
        industry fishing boats who work collaboratively with NEFSC 
        scientists on real-time fisheries tow-by-tow data.

    The accuracy of Portal maps portraying commercial fishing vessel 
activity is also a concern. Northeast and Mid-Atlantic ocean 
``Portals'' show Vessel Monitoring Systems (VMS) data as the basis for 
commercial fishing activity on both the Northeast and Mid-Atlantic 
ocean portals, additionally with Vessel Trip Report (VTR) data included 
for the Mid-Atlantic portal. Many caveats to using both VMS and VTR 
data are not noted however.

  <bullet> Not all New England/Mid-Atlantic fisheries were/are required 
        to carry VMS. Only some VMS fisheries are listed on the portal, 
        for small sample years, which can translate to a very cherry-
        picked one-dimensional snapshot of commercial fishing activity, 
        not one for those wishing to understand where species of fish 
        exist in the context of fishing effort through time and space.

  <bullet> VTR data (which shows listed fishing effort within a 
        statistical area) gathered by NOAA has often been viewed by the 
        NEFSC as inaccurate, or a somewhat incomplete picture of where 
        fishing occurs due to clerical errors on the part of fishermen 
        filling out the forms. The portal data also acknowledges it 
        does not separate fishing activity from transit areas to/or 
        from ports.

    So while MDAT models temporal and spatial movement for avian and 
marine mammals, none of the MDAT fish products capture a complete 
picture of biomass or individual fish species richness, or capture the 
same movement, temporally or spatially of fish or fishermen based on 
migrations of fish, or seasons, on the Portals. Unfortunately, the 
majority of the MDAT data is static, and lacks the requisite types of 
industry-informed, cooperatively-gathered data products that can show 
the dynamic nature of the ocean, including temporal and spatial 
movement of both the fish and the fishing industry.
    The Mid-Atlantic and New England Fishery Management Councils, via 
their Science and Statistical Committees (SSC), utilize both fishery-
independent data streams to estimate stock abundance and set total 
allowable biological catch limits, and fishery-dependent surveys, such 
as those utilizing observers and landings to determine level and scale 
of removal through fishing effort.
    Collaborative research, once peer-reviewed, can be added to 
fisheries data during an SSC Benchmark Assessment of a fishery for 
consideration as it relates to stock abundance. NOAA has already 
approved cooperative and collaborative science research projects with 
industry to augment fisheries data, in part through research set-aside 
projects, such as with the scallop industry,
    The types of alternative data streams that I believe should be 
added within the Regional Planning Bodies MDAT data should include:

  <bullet> Fisheries-dependent data streams such as those from the 
        NEFSC's Cooperative Research (CR) Study Fleet. This program 
        includes gathering a whole range of ecosystem data and 
        products, including as mentioned previously, real time catch 
        data at the individual haul level. This type of data has 
        already been vetted through the NEFSC, and includes the work of 
        John Manderson of NEFSC-Cape May and his peer-reviewed 
        butterfish model.

  <bullet> A push-in crowd-sourcing program of data, one that 
        integrates the ocean observing capability of the on-the-water 
        fishing industry with real-time peer-reviewed fisheries data 
        via the CR-Study Fleet. I'm told such a program is currently 
        under development by the NEFSC's CR department, one that could 
        add multiple layers of ecological, biological and economic 
        real-time data and value to lacking MDAT data. I believe that 
        could solve a lot of the gaps of the present data picture.

  <bullet> Fishery-independent data surveys such as the CR bottom long-
        line survey, one that is focused on surveying species in rocky 
        complex habitats that are very difficult to detect using trawl 
        survey gear. This type of survey can help to address gaps in 
        regional abundance and distribution trends, and captures 
        fisheries data at a finer level of data resolution.

  <bullet> Another way to improve the data streams would be to create 
        more state-wide fishery-independent surveys using the NEAMAP 
        model (which has high trust among industry) for each Southern 
        New England and Mid-Atlantic state (with uniformity of gear 
        etc.), working collaboratively to assure effective, accurate 
        and uniform regional fishery-independent data.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                               Dan Keppen
    Question 1. Agency Coordination: Mr. Keppen, in your testimony you 
discuss the need to streamline the existing fisheries management 
framework. One of the major advantages of having regional planning 
bodies is to address the problem you have described: to get all of the 
federal, state, and local partners into one room so that they can 
identify discrepancies and coordinate solutions. Clearly the best 
outcome would be to have the government work in the most efficient and 
effective way possible. What is your ideal process for all of the 
Federal agencies to cooperate in a successful multi-faceted economy, 
which includes fisheries, farmers, energy, and shipping?
    Answer. It is true that regional planning bodies provide a forum to 
get all of the federal, state and local partners into one room so that 
they may identify discrepancies and coordinate solutions. Fishermen, 
farmers, and shippers are all producers, whose interests are often best 
represented by industry associations who advocate for them. 
Unfortunately, the National Ocean Policy (NOP) created regional 
planning bodies made up of government officials and no private sector 
representatives. An ideal, collaborative process should include key 
federal, state and local government representation--as well as 
participation from key private sector and non-profit interests.
    Such processes will be unique to each specific region and the 
challenges facing that region. My experience suggests that there is no 
``one size fits all'', ideal solution. However, there are templates for 
success in the region spanned by my membership, some of which are 
described in a 2016 report the Family Farm Alliance prepared and 
presented to President Obama's White House Water Forum, conducted on 
World Water Day in March 2016. That report, entitled ``Western Farmers 
and Ranchers as Problem Solvers: A Compilation of Case Studies 
Highlighting Locally-Driven Solutions to Western Water Resource 
Challenges'' includes two case studies that might be considered as 
examples to further supplement this response to your question. One is 
``Collaboration, Ecosystem Restoration, and New Storage: Yakima Basin 
(Washington)'' and the other is ``Collaboration, Conservation, Energy 
and Water Reliability, and Regulatory Assurances: Deschutes River Basin 
(Oregon)''. Both of these efforts are notable for the vast and diverse 
array of local, state and Federal agencies and stakeholders that came 
together to forge reasonable, successful solutions to natural resources 
challenges. You can download our full report here.

    Question 2. Improving Restoration: Mr. Keppen, you have identified 
how nutrient and sediment pollution from inland farms can have 
detrimental environmental effects on the marine environment. In your 
written testimony, you state that the Family Farm Alliance is ``pleased 
to see the NOP acknowledge that collaborative watershed restoration 
efforts are important to the overall success of coastal and marine 
habitat conservation . . .'' I am very pleased to hear that the FFA 
supports comprehensive watershed restoration efforts. While the NOP 
does not grant regulatory authority to the regional planning bodies nor 
extra authority to the Federal agencies that participate, they do have 
the ability to increase coordination of restoration efforts on a 
voluntary basis at a more local level. What would you recommend to 
improve these efforts?
    Answer. While the NOP may not grant regulatory authority to the 
regional planning bodies nor extra authority to the Federal agencies 
that participate, the Regional Planning Body actions are binding on the 
participating Federal agencies, with potential impacts including 
restrictions on human activities. Something similar to these regional 
bodies--modeled on the considerations I outlined in my previous 
response--might indeed offer the ability to increase coordination of 
restoration efforts on a voluntary basis at a more local level. 
However, additional actions would further improve these efforts.
    First, the NOP Executive Order should be vacated and efforts should 
instead be directed to work with all stakeholders to ensure transparent 
and thoughtful ocean policies. This effort should seek to underscore 
the primacy of existing authorities and processes that are authorized, 
well-established, and well understood. Federal agencies must recognize 
the concerns and contributions that ocean-using stakeholders have 
regarding ocean policy. The collective effort should adhere to and 
embrace policies that promote sound and science-based decision making.
    All of these recommendations are intended to address one of our 
primary concerns with this process: avoiding unnecessary duplication 
and confusion.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Kathy Metcalf
    Question 1. Stakeholder Engagement: Ms. Metcalf, in your testimony, 
you mention the Chamber of Shipping of America's active engagement with 
the Northeast and Mid-Atlantic Regional Planning Bodies. Stakeholder 
participation seems critical to the success of these bodies. Can you 
talk about your experience in dealing with the Regional Planning Bodies 
and their willingness to accept stakeholder input?
    Answer. Our experience in participating in and contributing to the 
Regional Planning Body process has been positive. The most beneficial 
stakeholder engagement in this process has been the networking and one 
day or half day workshops prior to the Regional Planning Body meetings. 
These workshops were the only opportunity to sit down around a table, 
off the record, with commercial stakeholders and Government officials 
to discuss issues/areas of concern, accurate or inaccurate perceptions 
and mutual points of interest. These roundtable discussions are the 
heart of this process and our reason for engagement. We found that our 
involvement and talking points stated in these workshops were raised in 
the RPB meeting the following day, sometimes with our Organization's 
name and exact words.
    In particular, during one workshop we interacted with the USCG, 
State of New York and other stakeholders to help them understand that a 
wider buffer zone was needed between the New York wind energy area 
lease and the traffic separation schemes in the approaches to the port 
of New York. We believe these conversations were essential pieces in 
the buffer zone being increased for the safety of ships entering and 
exiting the port.
    Since the decisions of the Regional Planning Body and Ocean Plans 
are not regulatory, we can openly express the concerns and needs of the 
shipping industry without fear of regulation following. We convey our 
critical views that the regional plans must coincide to prevent 
confusion for ships transiting multiple region ocean plans. 
Additionally, the involvement of the U.S. Coast Guard in the process as 
a Federal Agency that understands and regulates commercial shipping is 
vital contrary to riders to bills that have been introduced to keep 
USCG out of the planning process.

    Question 2. Ocean Use: Ms. Metcalf, you stated that having 
information on other ocean use activities such as commercial and 
recreational fishing and boating activity is helpful when addressing 
navigation and safety concerns as it relates to placing offshore 
structures that could impact these uses and potentially conflict with 
safe navigation. Anytime there are multiple stakeholders with diverging 
interests, conflicts are bound to ensue. What does the NOP do to 
address conflicts and help mitigate future conflicts between 
stakeholders with different priorities and interests regarding their 
uses of the ocean?
    Answer. We believe that NOP and the regional planning bodies when 
fully operational will allow for the identification of conflicts early 
on in the process, permit a full discussion including comments from 
stakeholders (public and private) and lead to a better final decision 
on ocean uses.

    Question 3. Emergency Response: Ms. Metcalf, you also mention the 
conflicts and dangers that exist in and around the marine environment 
and maritime community that the National Ocean Policy helps make sense 
of through contingency planning and preparedness. This is not limited 
to weather events like hurricanes or environmental hazards like oil 
spills, which can negatively impact our economy and national security, 
but it now includes cyber and terrorists' threats as well. Can you give 
an example of how interagency coordination and planning has helped when 
emergencies occur?
    Answer. As you are aware, the National Contingency Plan (NCP) 
already establishes a unified response system for maritime emergencies. 
For more information, please see https://www.epa.gov/emergency-
response/national-oil-and-hazardous-substances-pollution-contingency-
plan-ncp-overview similar national planning work is being done for the 
``new'' threats e.g., cybersecurity and terrorism as it relates to the 
maritime sector.
    While these national planning efforts predates the creation of the 
National Ocean Policy and regional planning framework, we believe that 
they can be a facilitator to ensure that all stakeholders and all 
levels of government understand the multi-agency planning efforts which 
already exist and can contribute to the regular review and revision of 
these plans to better respond to maritime sector emergencies.

    Question 4. Coordinated Data: Ms. Metcalf, your testimony 
highlighted the importance of having data from multiple agencies, 
states, and regions in a central location for permitting and decision-
making. What differences do you notice between regions with coordinated 
data portals created through the National Ocean Policy and regions 
without such centralized data hubs?
    Answer. At these early stages of data portal development, we have 
not observed differences to date. We fully support all data points 
including offshore energy not currently in the data portal to be added. 
We believe that the full development and funding of regional data 
portals will most certainly result in a decision making process which 
takes into account all ocean users and fully coordinates the Federal 
and state agencies' discussions leading to a final well-informed 
decision. These efforts will never resolve all the conflicts but we 
believe they will result in a forum where concerns can be voiced and 
considered before a final decision is made.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                             Kathy Metcalf
    Question 1. Back in 2005, Massachusetts joined with other New 
England states to form the Northeast Regional Ocean Council, an effort 
that helped pave the way for the development of the Northeast Ocean 
Plan under the National Ocean Policy. This work brought together 
various stakeholders such as the environmental community, fishing and 
shipping industries, and local and Federal governments to create a 
planning process where we could be smart from the start in deciding how 
to use our oceans and minimize potential conflict. This type of ocean 
planning is a perfect example of working smarter, not harder. By 
increasing coordination between these stakeholders, it helped pave the 
way for the successful first commercial offshore wind project off the 
coast of New England, off of Block Island. Can you describe for me how 
the enhanced planning and coordination provided by the Northeast Ocean 
Plan can help ensure that we can select and permit offshore wind 
projects in locations that minimize potential conflicts and have the 
support of the various stakeholders?
    Answer. History as always is the best teacher and thus past 
experiences and challenges will better inform future decisions made in 
conjunction with the NE Ocean Plan. As indicated in my testimony, 
several years ago, I received a copy of a chartlet for the approaches 
to Hampton Roads, Virginia and on that chartlet, lease plots being 
offered for offshore wind projects were overlaid. These plots included 
areas in the established traffic lanes and vessel traffic systems for 
the approaches to Hampton Roads and the entrance to Chesapeake Bay. In 
this case, the horse appeared to have already left the barn and 
proposals were being offered for these areas key to the safe navigation 
of vessels into and out of Hampton Roads. Although we learned that 
several local meetings had been held to receive comments of 
stakeholders (which we understand the local U.S. Coast Guard attended), 
the process moved forward without consideration of the safe navigation 
issues associated with keeping the traffic lanes open and clear. 
Unfortunately, the only way to put rational brakes on this initiative 
was to discuss with senior U.S. Coast Guard officials (in this case the 
Commandant) at which time the U.S. Coast Guard initiated a Port Access 
Route Study (PARS) for the entire Atlantic Coast. The large 
unprecedented geographic scope of the PARS study was justified because 
a number of similar projects were being proposed in multiple locations 
on the Atlantic Coast (New York, New Jersey, Virginia, North Carolina) 
and little or no consideration seemed to have been given for 
established traffic routes/systems for entry into nearby ports. As a 
result of the PARS study, these considerations were finally taken into 
account.
    This lesson leads to the answer to the question you have posed. If 
the NE Ocean Plan (and any other regional plan) works the way it 
should, these discussions and potential conflicts will occur BEFORE one 
agencies process (in this case, DOE/DOI proposed lease plots are 
published) is underway and future proposals will have taken into 
account potential conflicts for a specific area and resolved with input 
from ALL stakeholders.

    Question 2. Do you think that the coordination provided under the 
National Ocean Policy, which we have demonstrated in the Northeast, can 
provide similar benefits to other regions of the country in terms of 
developing offshore wind?
    Answer. Yes, we do and evidence of that is also showing up in the 
Mid-Atlantic Plan process. All stakeholders can benefit from having a 
forum where all can provide input to the process and assure that all 
considerations are taken into account before any decisions to move 
forward are made.

    Question 3. Senator Wicker and I worked together with the President 
Obama's Task Force on Combatting Illegal, Unreported, and Unregulated 
Fishing and Seafood Fraud to establish the NOAA Seafood Import 
Monitoring program. That taskforce is now a committee under the 
National Ocean Council and oversees progress in implementing the 
Taskforce's recommendations. Stopping Illegal, Unreported, and 
Unregulated Fishing requires many agencies including the Departments of 
Commerce, Health and Human Services, and Homeland Security, among 
others. The National Ocean Policy is crucial because it helps these 
many agencies work together.
    In your testimony you say that ``Regional Ocean planning is not 
about new regulations but about helping Federal and state agencies do 
their job better.'' In your experience, how do regional ocean plans 
help ensure that these sorts of efforts that cross the jurisdictional 
boundaries of multiple agencies are successful?
    Answer. There is no guarantee that regional ocean plans will 
achieve these very important goals but regional planning bodies are a 
good step forward to ensure this coordination. However, without a 
regional ocean planning body, issues which cross jurisdictional 
boundaries of multiple agencies and impact potentially conflicting 
ocean user may not be fully appreciated by all the stakeholders and we 
are left with the same situation as we encountered in the Hampton Roads 
example referenced above.

    Question 4. In 2007, federal, state, and local groups 
collaboratively developed new shipping guidelines to prevent mariners 
from hitting endangered right whales in the Boston Harbor and in Cape 
Cod Bay, a move predicted to reduce whale strikes by as much as 81 
percent. We are now in the middle of what NOAA has declared an Unusual 
Mortality Event for Right Whales: more than 3 percent of the entire 
population of this endangered species has died in the past year. How 
does the shipping industry use Regional Ocean Plans to coordinate with 
other federal, state, and local stakeholders to protect species such as 
endangered Right Whales?
    Answer. At this point, we have not since the creation of the NE and 
Mid-Atlantic plans are really in their infancy. In the case noted above 
re: endangered right whales in the Boston and Cape Cod Bay areas, the 
shipping industry, NOAA and the U.S. Coast Guard has been working on 
this problem for over a decade not only in this area but along the 
entire Atlantic Coast migration route of the endangered right whales 
which eventually led to the final regulation focused on mitigating ship 
strikes. In this case, the two Federal agencies and the shipping 
industry recognized the need to collaborate in designing a solution 
that worked e.g., seasonal management areas with mandatory speed 
restrictions, dynamic management areas with recommended speed 
restrictions. This resulted without the benefit of having a regional 
ocean planning body as we now have and was a good example of 
collaboration at the Federal level, but with little input from local 
stakeholders. We would hope that issues of this type will now be the 
topic of discussion among Federal and state agencies with input from 
all stakeholders.

    Question 5. The Northeast Massachusetts Aquaculture Center at Salem 
State University used data from the Northeast Ocean Plan to advise the 
development of the first shellfish farm in Atlantic Federal waters. 
Because the data was in one central, public location, Salem State was 
able to determine that the 33-acre farm for blue mussels, would not 
adversely affect whales, shipping traffic, or existing fishing 
activity. Can you speak to how important and useful Data Portals have 
proven to be in your own experience?
    Answer. Given that the data portals are only just now being 
populated with data from multiple ocean users, we have not had the 
benefit that is expected to be provided when they are fully populated 
with information from all the ocean users in a region. Commercial 
shipping is readily available via the now mature Automatic 
Identification System (AIS) and is included in the data portals now. It 
will be very important that similar data from other ocean users be 
collected and included in the data portals to fully appreciate the 
multiple uses in a given region. One additional and obvious point about 
data portal information, is that it needs to be accurate. During the 
hearing, the witness from the fishing industry indicated significant 
concern about what she indicated was inaccurate data being loaded in 
the data portals which is a legitimate concern that will need to be 
addressed to ensure the support of this process from ALL ocean users.

                                  [all]
</pre></body></html>
